<html>
<title> - INNOVATIONS IN ADDRESSING CHILDHOOD OBESITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
              INNOVATIONS IN ADDRESSING CHILDHOOD OBESITY 

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 16, 2009

                               __________

                           Serial No. 111-90


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

74-861 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA CHRISTENSEN, Virgin Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont

                                  (ii)
                         Subcommittee on Health

                FRANK PALLONE, Jr., New Jersey, Chairman
JOHN D. DINGELL, Michigan            NATHAN DEAL, Georgia,
BART GORDON, Tennessee                   Ranking Member
ANNA G. ESHOO, California            RALPH M. HALL, Texas
ELIOT L. ENGEL, New York             JOHN B. SHADEGG, Arizona
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
JANICE D. SCHAKOWSKY, Illinois       MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
ANTHONY D. WEINER, New York          JOHN SULLIVAN, Oklahoma
JIM MATHESON, Utah                   TIM MURPHY, Pennsylvania
JANE HARMAN, California              MICHAEL C. BURGESS, Texas
CHARLES A. GONZALEZ, Texas
JOHN BARROW, Georgia
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
  



                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, prepared statement....................................
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, prepared statement...............
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, prepared statement...............
Hon. Bruce L. Braley, a Representative in Congress from the State 
  of Iowa, prepared statement....................................
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................
Hon. Bart Gordon, a Representative in Congress from the State of 
  Tennessee, prepared statement..................................
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, prepared statement.............................

                               Witnesses

William H. Dietz, M.D., Ph.D., Director, Division of Nutrition, 
  Physical Activity, and Obesity, National Center for Chronic 
  Disease Prevention and Health Promotion, Centers for Disease 
  Control and Prevention, U.S. Department of Health and Human 
  Services.......................................................
    Prepared statement...........................................
Terry T-K Huang, Ph.D., M.P.H., Director, Obesity Research 
  Strategic Core, Eunice Kennedy Shriver National Institute of 
  Child Health and Human Development, National Institutes of 
  Health, U.S. Department of Health and Human Services...........
    Prepared statement...........................................
Ron Jaworski, Jaws Youth Fund, National Football League Play 60..
    Prepared statement...........................................
Sandra Hassink, M.D., Chair, Obesity Leadership Workgroup, 
  American Academy of Pediatrics.................................
    Prepared statement...........................................
    Answers to submitted questionw...............................
Jeremy Nowak, Ph.D., President and CEO, Reinvestment Fund........
    Prepared statement...........................................
Mary Sophos, Senior Vice President, Government Affairs, Grocery 
  Manufacturers Association......................................
    Prepared statement...........................................
Risa Lavizzo-Mourey, M.D., and President and CEO, Robert Woods 
  Johnson Foundation.............................................
    Prepared statement...........................................
    Answers to submitted questions...............................


              INNOVATIONS IN ADDRESSING CHILDHOOD OBESITY

                              ----------                              


                      WEDNESDAY, DECEMBER 16, 2009

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:42 a.m., in 
Room 2123, Rayburn House Office Building, Hon. Frank Pallone, 
Jr., [chairman of the subcommittee] presiding.
    Present: Representatives Pallone, Capps, Schakowsky, 
Barrow, Christensen, Castor, Sarbanes, Murphy of Connecticut, 
Space, Braley, Shimkus, Pitts, Murphy of Pennsylvania, Burgess, 
and Gingrey.
    Staff Present: Kaen Lightfoot, Communications Director, 
Senior Policy Analyst; Bruce Wolpe, Senior Advisor; Naomi 
Seiler, Counsel; Camille Sealy, Fellow; Lindsay Vidal, Press 
Assistant; Allison Corr, Special Assistant; Elizabeth Letter, 
Special Assistant; Matthew Eisenberg, Staff Assistant; Anne 
Morris, Professional Staff Member; Ryan Long, Minority Chief 
Counsel; Aarti Shah, Minority Counsel; and Chad Grant, Minority 
Legislative Analyst.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. The subcommittee hearing will be called to 
order. And today's hearing is on ``Innovations in Addressing 
Childhood Obesity.'' I will recognize myself for an opening 
statement initially.
    The top innovations in addressing childhood obesity is one 
of many interests of this committee and also Members of the 
House. I have to say we are having this hearing today because 
many Members, including some that are not on the committee, 
approached me on the floor and asked me to address this issue 
in various ways.
    Childhood obesity is a huge public health problem in this 
country that puts millions of American children at risk. Data 
from the Centers for Disease Control and Prevention, the CDC, 
indicates that over the last 3 decades, the rates of childhood 
obesity have been skyrocketing. In every age category, we have 
seen at least a doubling, and, in some age groups, a tripling 
in the numbers of children who are classified as obese. In 
addition, there are millions more who are just at the cusp and 
are in danger of becoming obese as well.
    The rates are the worst among minority populations. 
According to the CDC, Hispanic boys and African American girls 
have the highest rates of obesity, with 22.1 percent of 
Hispanic boys and 27.7 percent of African American girls 
classified as obese. And though the rates are starting to level 
off, there are still too many children in this country who are 
dangerously overweight.
    Childhood obesity can lead to health problems that 30 years 
ago were rarely seen in children. A report conducted by the 
Trust for America's Health in 2009 highlighted that more and 
more children are being diagnosed with Type 2 diabetes, 
hypertension, sleep apnea, joint problems and depression, just 
to name a few.
    And I should say for many years now, I have been the Vice 
Chair of the Native American Caucus. And when we go around to 
the various reservations, I have just noticed in the 21 years 
that I have been in Congress, that the rate, if you will, for 
Type 2 diabetes and the number of people that have it, when we 
go around to the reservations it just gets younger and younger 
every year. It is really almost of an epidemic nature in my 
opinion amongst the Native American populations. And these 
children are likely to continue to have health problems as they 
age into adulthood.
    Some experts have even predicted that if the trends in 
childhood obesity continue, we will for the first time see a 
generation that lives sicker and dies earlier than their 
parents. Regardless, we know that if left unaddressed, this 
epidemic alone has the potential to cripple our health care 
system.
    The price of obesity in this country is unsustainable. 
Adult obesity is estimated to cost our Nation $147 billion a 
year and childhood obesity adds another 14 billion to that 
price tag. Studies have shown that up to 80 percent of obese 
children will become obese adults. As we watch the number of 
these obese children skyrocket, the cost to our Nation will not 
only increase, but an obese and unhealthy Nation may very well 
bring about an unproductive Nation.
    In my State, New Jersey, 31 percent of our children are 
clinically overweight. That is nearly 7 percent higher than the 
rate of adult obesity. And I am worried that at a time of 
economic recession and high unemployment rates, many of these 
children will be less likely to have access to healthier, more 
expensive foods.
    Meanwhile, safety net health programs are continuously 
overextended as the numbers of uninsured and underinsured 
continue to grow, posing further risks to children who may not 
be receiving the medical care that they need.
    There are many factors that contribute to our rising rates 
of obesity. Personal habits definitely play some part. But many 
studies have been able to link obesity to unsafe neighborhoods, 
less exercise opportunities, and lack of access to healthy 
foods. Our health care system also plays some part, with 
millions of children living without preventive health services 
such as nutrition counseling and screening for obesity-related 
diseases.
    These are all things that we as a Nation can work together 
to address so that we can eventually reverse the trends of 
childhood obesity. And basically we are holding the hearing 
today because we are trying to find out from our witnesses 
about innovative work they are doing to address childhood 
obesity, to hear about how we at the Federal level can play a 
part in curbing this trend and to learn more about what makes 
obesity intervention successful. And I am also eager to hear a 
bit about where we need to focus our efforts over the next 10 
years.
    I am not suggesting to any of you that this is something 
that we are going to be able to solve overnight. I know it is 
something that needs long-term attention in many cases. I was 
thinking today about when I was growing up in the 
neighborhood--I don't live in the neighborhood anymore, but my 
father is still there and our congressional office is in the 
same neighborhood where I grew up. Almost all the recreational 
opportunities that existed when I was a kid have disappeared. 
The local playground is not there anymore. The YMCA is not 
there anymore. We live in a small town of about 30,000 people. 
It is not an urban area per se. But if you are going to bring 
back those things, it is not something you can do overnight, 
unfortunately.
    And I just think that we haven't paid enough attention to a 
lot of these underlying problems, whether it is recreation, 
whether it is food, whether it is supermarkets. And these are 
not things that you can necessarily deal with immediately, but 
they have to be addressed.
    So thank you. Thank you for being here. We will introduce 
the panel after the rest of the opening statements.
    And we have the gentleman from Georgia, Mr. Barrow.
    Mr. Barrow. Thank you, Mr. Chair. I waive on opening.
    Mr. Pallone. You will waive. And next is the gentlewoman 
from Florida, Ms. Castor.

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Thank you, Mr. Chairman, very much for calling 
this important hearing. The good news is that over the past few 
years the Congress has made wellness and healthy living and 
children's health a national priority.
    At the beginning of this year, the beginning of our agenda, 
the Congress passed and sent the children's health care 
legislation to the President for his signature. That expanded 
health services and medical care to millions of children all 
across America. And last month, the House version of the health 
care reform bill dedicated a huge part of the health reform 
effort to preventive care, wellness, and public health 
initiatives, really the most landmark investment in public 
health ever in the history of our country.
    And in going back to the last Congress in 2008, the farm 
bill required the USDA to purchase more fruits and vegetables 
for nutrition assistance programs and created a new program to 
provide fresh fruits and vegetables to elementary schools.
    So all of that is very positive. But all of this is in 
recognition of the fact that obesity rates for both adults and 
children in the United States have increased exponentially. We 
now have a clear understanding that this is an issue we need to 
address head on. There is a growing movement to live healthier 
lives and ensure that our children grow up with the same 
understanding.
    But I look at the statistics, Chairman Pallone, like in my 
State, the children in Florida, 33 percent of children in 
Florida are overweight or obese. That is above the national 
average. And there is no excuse for this. This is the sunshine 
State where you can play outside all year round. So like many 
States, Florida is trying to do some creative things. In my 
community in Tampa, the University of South Florida has 
developed the USF Healthy Weight Clinic, an exciting new 
multidisciplinary clinic for children, teenagers, adults who 
are overweight. It is family focused. It is a clinic that 
brings together pediatricians, internists and specialists who 
don't just do primary care but concentrate on weight 
management. In our public schools in 2007, the State of Florida 
passed a law requiring elementary students complete 150 minutes 
of physical education. They have modified that, unfortunately. 
At the start of the school year, though, Florida required that 
all middle-school students have at least one class of PE daily 
for a full semester.
    So while all of these initiatives and programs are 
excellent steps in fighting the obesity epidemic, we cannot 
stop there. It is critical that we need to do more, and I will 
be very interested in your expert advice today.
    But let me just say government cannot do this alone. 
Parents across this country have to take personal 
responsibility. And they have got to go to the grocery store 
and buy the healthy fruits and vegetables. They have got to 
fight for those supermarkets and markets in their 
neighborhoods. They have got to turn off the TV and tell their 
kids to go outside and play or do something constructive with 
their time.
    As co-chair of the Children's Congressional Health Care 
Caucus, childhood obesity has been one of our priorities. So I 
thank you, Chairman Pallone, again, for calling this hearing 
and I look forward to hearing from the witnesses. I hope that 
we can use this today as a step towards a broader national 
strategy to end this epidemic. I yield back.
    Mr. Pallone. Thank you.
    Does the gentleman from Ohio wish to make an opening 
statement?
    Mr. Space. I will waive.
    Mr. Pallone. You will waive? OK. I think that concludes our 
opening statements.
    We will go to our witnesses. And on our first panel, we 
have with us on my left, Dr. William Dietz, who is Director of 
the Division of Nutrition, Physical Activity, and Obesity for 
the Centers for Disease Control and Prevention. And then next 
to him is Dr. Terry Huang, who is Director of the Obesity 
Research Strategic Core for the Eunice Kennedy Shriver National 
Institute of Child Health and Human Development at the National 
Institutes of Health.
    And we welcome both of you. Thank you for being here today. 
We have 5-minute opening statements that become part of the 
record. And then we will move to questions by the members of 
the panel.

STATEMENTS OF WILLIAM H. DIETZ, M.D., Ph.D., DIRECTOR, DIVISION 
 OF NUTRITION, PHYSICAL ACTIVITY, AND OBESITY, NATIONAL CENTER 
 FOR CHRONIC DISEASE PREVENTION AND HEALTH PROMOTION, CENTERS 
 FOR DISEASE CONTROL AND PREVENTION, U.S. DEPARTMENT OF HEALTH 
    AND HUMAN SERVICES; AND TERRY T-K HUANG, Ph.D., M.P.H., 
   DIRECTOR, OBESITY RESEARCH STRATEGIC CORE, EUNICE KENNEDY 
     SHRIVER NATIONAL INSTITUTE OF CHILD HEALTH AND HUMAN 
DEVELOPMENT, NATIONAL INSTITUTES OF HEALTH, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Mr. Pallone. We will start with Dr. Dietz. Thank you for 
being here today.

                 STATEMENT OF WILLIAM H. DIETZ

    Dr. Dietz. Thank you, Chairman Pallone and members of the 
subcommittee, for the opportunity to provide you statements on 
the record for today's hearing.
    Mr. Pallone. You might have to bring your mike closer.
    Dr. Dietz. Thank you for the opportunity to provide this 
statement for the record on today's hearing on innovative 
practices to prevent childhood obesity.
    Mr. Chairman, you were correct about the prevalence data; 
16 percent of 2- to 19-year-olds in the United States are 
obese, and an almost equal number are overweight. So about a 
third of our children and adolescents are obese or overweight.
    You also pointed, correctly, to the increased prevalence 
among certain subgroups of the population. So, for example, in 
2006, 27 percent of 6- to 11-year-old male Mexican Americans 
were obese, and 27 percent of 12- to 19-year-old African 
American females were obese. And although as you correctly 
pointed out, we are at a plateau, an apparent plateau, that is 
not grounds for complacency. We need to invest in turning the 
corner on this epidemic. And we believe that just as the 
environment was the major contributor to this epidemic, the 
environment is where those solutions lie.
    Childhood obesity is associated with a variety of 
precursors for adult disease; namely, elevated lipid levels 
which predispose to hardening of the arteries; increased 
tolerance to glucose, which predisposes or is a precursor to 
Type 2 diabetes and elevated blood pressure; 70 percent of 
obese children and adolescents have at least one of those risk 
factors and 40 percent have two or more.
    In addition, the persistence of childhood obesity into 
adulthood is associated with an increased risk of severe 
obesity in adulthood. About 50 percent of adults, half of all 
adults with severe obesity, namely 100 pounds or more of excess 
weight, had onset of this disease in childhood. So that even 
though childhood obesity contributes a minority of adult 
disease, it may have a disproportionate effect on the severity 
of obesity and its attendant costs and complications.
    Ten percent of the national health care budget is now spent 
on obesity and its complications, and that is a significant 
barrier to controlling the costs of our medical system. We 
believe that a multicomponent, multisectoral approach is 
essential that focuses on policy and environmental change.
    There are at least seven areas of interest. Excessive 
weight gain during pregnancy, Type 2 diabetes or gestational 
diabetes during pregnancy, and tobacco use during pregnancy all 
predispose to early childhood obesity. We also believe that 
control is going to require an increased intake of fruits and 
vegetables, a reduced intake of high-energy density foods such 
as fast foods, reduced intake of sugar sweetened beverages, 
reduced time spent viewing television, increased rates of 
breast feeding and increased rates of physical activity. Those 
are the target behaviors. Those are not the strategies that are 
necessary to implement those.
    So that, for example, with respect to increasing rates of 
breast feeding, we need to implement policies and environmental 
supports in maternity care settings, implement the same 
policies and environmental supports in the work site, and 
develop State and national breast feeding coalitions to improve 
support for breast feeding.
    Now, I would like to turn to three examples, one in day 
care or child care, one in schools and one in communities as 
examples of innovative strategies. One of the most innovative 
strategies is the New York City Group Day Care Initiative which 
calls for the provision of no sugar-sweetened beverages for 
children in group day care; limits to 6 ounces of 100 percent 
juice per day; 1 percent of low-fat milk for children over the 
age of 2; water available at all meals; increased rates of 
physical activity, 60 minutes, which is the requirement for 
children; and limits on television time.
    Now, the combination of these multiple targets and these 
multiple strategies in a day-care setting is likely to have a 
significant impact on the prevalence of obesity, not to mention 
the health of these children. A notable example of a school-
based initiative has occurred in Mississippi where 65 school 
districts have replaced deep fat fryers with oven steamers, 
thereby reducing the calorie and fat content of the foods 
served to children. In addition, Mississippi has made major 
improvements in decreasing the availability of sugar-sweetened 
beverages and other high-calorie foods. They are now a leader 
in terms of school initiatives in the country.
    And then finally, with respect to community initiatives, 
the American Recovery and Reinvestment Act has allowed us to 
begin to invest in community and State-Level changes that 
address these strategies. And at the time of the weight of the 
nation, we released an MMWR, a morbidity and mortality weekly 
report entitled ``Recommended Community Strategies and 
Measurements to Prevent Obesity in the United States. And these 
strategies focus on the increased availability of healthy food, 
decreased access to less healthful foods, increased access to 
recreation facilities, and increased physical education 
programs in schools. There are a total of 24 of those 
strategies which we would be happy to share with you.
    In closing, children are our most precious resource and 
obesity is a major threat to their health and to the costs of 
health care in the United States. We are seeing progress, but 
the opportunity now exists through the American Recovery and 
Reinvestment Act and other innovative programs to begin to 
reverse this epidemic. Thank you for this opportunity.
    Mr. Pallone. Thank you, Dr. Dietz.
    [The prepared statement of Dr. Dietz follows:]******** 
INSERT 1-1 ********
    Mr. Pallone. Dr. Huang.

                  STATEMENT OF TERRY T-K HUANG

    Mr. Huang. Mr. Chairman and members of the committee, thank 
you very much for the invitation to testify today. I am pleased 
to be here today to share with you some of our recent research 
and some of our plans for addressing this multifaceted problem 
as we move forward.
    The NIH recognizes that to really make a difference on 
childhood obesity, research should address the broader system 
in which children learn, play, live, and obtain health care. 
Such a systems-oriented framework will need to link biological 
factors of obesity with social, environmental and policy 
factors that influence children's diet and physical activity. 
Over the last few years, research has demonstrated the 
important impact of the physical, social, and economic 
environments on the obesity epidemic. For example, 
neighborhoods with lower socioeconomic status have less access 
to safe settings for physical activity which is associated with 
decreased physical activity levels and higher prevalence of 
obesity. Other community characteristics, such as the lack of 
public transportation or land use and zoning issues, can also 
contribute to decreased opportunities for physical activity.
    In addition, there is research showing that the 
availability of and access to healthy foods are important. 
Areas that are food hazards or areas with a high density of 
fast food, relative to other restaurant choices, are associated 
with a higher prevalence of overweight and obesity.
    Research has also shown that economic factors such as food 
marketing and pricing are critical as they can influence the 
purchase and consumption of nutrient-poor but energy-dense 
foods.
    To accelerate research progress and translate research 
findings into effective solutions, the NICHD, in partnership 
with a number of other NIH Institutes and offices, the CDC, and 
the Robert Woods Johnson Foundation, came together to form the 
National Collaborative on Childhood Obesity Research earlier 
this year. NCCOR is designed to coordinate and synergize the 
funding efforts from member organizations to avoid duplication 
of efforts and to pool resources for large, ambitious projects 
that bring us closer to effective and sustainable solutions.
    For example, NCCOR recently launched the Envision Project, 
which aims to help us understand the complexity of the 
childhood obesity problem, and virtually tests environmental 
and policy interventions through sophisticated computational 
systems models.
    NCCOR also will soon be beginning beginning funding in a 
nationwide study to determine the effectiveness of existing 
company-based strategies and programs, using a common 
evaluation approach. Some of those communities might be the era 
of funded communities that Dr. Dietz talked about, for example.
    In addition, a consortium of prevention and treatment 
trials that simultaneously target multiple settings in which 
children learn, play, live and/or seek health care will be 
funded this year.
    Other recent research programs of note include initiatives 
on encouraging community-based partnerships of obesity 
researchers with local or State-Level policymakers, and 
research on school and community policies that impact obesity-
related behaviors and outcomes.
    Funding received by NIH under the American Recovery and 
Reinvestment Act has also created opportunities for innovative 
research. One NICHD example is a unique weight maintenance 
study with strong focus on children's social environment that 
aims to help children who have achieved weight loss to maintain 
their reduced weight.
    To conclude, it is important to note that the childhood 
obesity problem is linked not only to children's and parents' 
behavior, but also, more importantly, to social and economic 
development and a number of policy areas outside of the 
traditional public health sphere. Thus, we need to deal with 
obesity as a systems issue, not just a health issue. We need to 
invest resources into research that is systems-oriented, 
multilevel, and cross-disciplinary, and include partners from 
all sectors of our society to generate effective and 
sustainable solutions.
    The solution to the childhood obesity problem will require 
a coordinated, collaborative, and multisectoral strategy that 
includes strong actions from the government, industry, 
community and family. Together we need to create an environment 
that not only favors trade and economic productivity, but it 
also takes into account the long-term health of the population. 
Until both healthy eating and physical activity become 
naturally embedded in everyday life, there is little chance 
that the childhood obesity toll in the U.S. and around the 
world will diminish.
    Thank you. I would be happy to answer any questions.
    Mr. Pallone. Thank you, Dr. Huang.
    [The prepared statement of Mr. Huang follows:]******** 
INSERT 1-2 ********
    Mr. Pallone. And now we will have questions for the panel. 
And I will start out by recognizing myself. What I am going to 
say I guess is kind of a cliche, but I love to use stories or 
personal stories to sort of make a point when I can.
    What you said, Dr. Huang, and I totally agree, is we need 
strong action. But the question is, a lot of these things are 
so personal in nature, not necessarily viewed by the American 
public as something that the Federal Government gets involved 
in. So I guess my question always is to what extent can the 
Congress legislate or provide funding that is meaningful.
    Let me just give you my story. I always think about my 
grandparents because they were Italian American immigrants and 
they came from Italy. And my grandfather lived to be I think 96 
or 98. Was always thin. And he would literally have a garden in 
the backyard, raise the things that he would eat, not 
completely, but a lot of the stuff. My grandmother would can 
the goods, put the tomatoes and peppers and everything in the 
jars. So much of what they ate was just grown by them in their 
backyard, and then they would--even in the winter they would 
have it, because they would can it or whatever and preserve it. 
And they never went out. I remember my grandmother like had an 
aversion to ever going out to a restaurant. I can never 
remember her going to a restaurant ever, or doing takeout. I 
don't even know if it existed to them. But it just didn't 
occur. OK?
    Today it is just the opposite. When I go home, we are 
always looking to go for takeout. I have teenage kids. They are 
always looking to go to McDonald's. It is just the whole nature 
of the lifestyle has changed.
    And I was mentioning Native Americans that--one of the 
highest incidents of diabetes is with the Pima people. And I 
have been out to the Pima reservation, to the Tohono O'Odham in 
Sells, Arizona, which is another Pima people. And that is where 
I would see--every year that I would go, there would be lower 
and lower--the kids would get diabetes at a younger age. And 
what they would tell me was that historically they were a 
desert people. They would gather in the desert everything they 
ate. It is was a very different diet. Now they are eating all 
processed foods.
    Now, the question really is, we can't go back. You are not 
going to take people back to the old days. Are there things we 
can do now, though, that recreate that? Like, for example, with 
the Tohono O'Odham, it was suggested that they start like a 
vitamin supplement program. And then there was a nonprofit 
called TOCA, T-O-C-A, that started trying to get people to grow 
some of the traditional foods through a local cooperative. We 
can't go back to what life was like 30, 40 years ago when 
people were healthier in terms of what they ate. But on the on 
the other hand, what is the role of the Federal Government? 
Because so many of these things are personal, they are not 
necessarily--it is lifestyle. I know it was a broad question.
    Mr. Huang. Well, thank you for your question and comment, 
Mr. Chairman. I think your point is well taken. I think 
research has clearly shown that along with social and economic 
changes, as you have mentioned, many aspects of our lifestyle 
have changed and many aspects of our environment have changed 
to result in the lifestyle that we have today.
    So I think what the collection of research is suggesting 
what we need to do is to really somehow think about making the 
environment conducive for people to have healthy eating and 
physical activity habits. So I think in a way, you can think it 
of as giving people the full gamut of choices so that people 
can truly exercise personal responsibility. If families don't 
have access to healthy foods in their neighborhood, because 
there is no supermarket or there is a lack of variety of food 
outlets, then they don't really have the option to even 
exercise the full range of personal choice.
    Mr. Pallone. That goes back to the other thing I mentioned. 
When I was growing up in the neighborhood where my father still 
lives, and where our congressional office is, there was a 
school that had a playground. The school closed. No playground 
anymore. The Y closed because they didn't have enough money.
    And that is what is happening. In a lot of the urban areas 
or poor areas--and this isn't really a poor area, I am not 
suggesting that, but it is not a high-income area. A lot of the 
nonprofits and the educational institutions that had these 
recreational opportunities have sort of dried up for lack of 
funds. They are more likely to build a Y in a suburban area 
than they are in an urban area. At least I have never done a 
survey, but it seems that way.
    Mr. Huang. I think there are a lot of promising actions 
that are taking place on the ground right now, and I think our 
second panel will illustrate some of those very promising 
approaches. Reintroducing food to areas where--that are 
considered food deserts, for instance. We are going to hear 
from someone in Pennsylvania later today on that issue.
    Right in D.C., you see a resurgence of neighborhoods, 
increased mixed land use, so people are walking more, they are 
getting more physical activity. These are all, I think, really 
promising ideas that are in keeping with advancing progress, 
but at the same time, building back physical activity 
opportunities and healthy food opportunities back into our 
daily lives. And I think these are promising opportunities.
    We definitely need to do more research. We need to monitor 
and evaluate what effects these changes will have on people's 
behavior and health outcomes. But I think that there are 
promising solutions that are already taking place and there is 
a lot of that, I think, all sectors of society can do from the 
government all the way down to the individual family and 
children.
    Mr. Pallone. All right, thank you. The gentleman from 
Pennsylvania, Mr. Pitts.
    Mr. Pitts. Thank you, Mr. Chairman.
    Mr. Pallone. You still have--I have been in your district. 
You still have a lot of farms and healthy foods there.
    Mr. Pitts. Farmers markets and a lot of canning. The Amish 
and Mennonite do a lot of that. With unanimous consent, I would 
like to submit my opening statement for the record.
    Mr. Pallone. Without objection, so ordered.
    [The prepared statement of Mr. Pitts follows:]******** 
COMMITTEE INSERT ********
    Mr. Pitts. Thank you, Dr. Dietz. In your testimony, you 
mentioned that the obesity trend is leveling for boys and girls 
ages 2 to 19. What factors do you think are contributing to 
that leveling?
    Dr. Dietz. I wish we knew with some specificity.
    Mr. Pallone. Maybe it is a good time for me to mention we 
are going to have four votes. But I am going to try to get a 
couple more questioners in before we break.
    Dr. Dietz. Sure. I wish we knew with some specificity what 
was accounting for the plateau. By way of analogy, what we saw 
with tobacco was a steady acceleration of per-capita tobacco 
use, until awareness began about the adverse effects of 
tobacco, at which point cigarette smoking began to plateau.
    The attention given to obesity in the press recently and at 
all levels of government, I think, may have increased awareness 
of the adverse health impacts of obesity and changed behaviors 
in some ways that we don't yet understand clearly.
    The other major development has been in schools. Our 
Division of Adolescent and School Health has shown very 
substantial changes in the reduction of the availability of 
unhealthful foods in schools which may have also been an 
important contributing factor. But it is important to emphasize 
all we have is a plateau. We don't yet have in place the kind 
of environmental and policy initiatives that drove tobacco in 
the other direction. And those are the areas that we think we 
need to invest in with respect to obesity.
    Mr. Pitts. In your testimony, you mentioned that 
communities are putting prevention to work program. Can you 
elaborate further on this program? Has the program begun?
    Dr. Dietz. Sure. These are the American Recovery and 
Reinvestment Act funds that came to CDC for community and State 
initiatives. We have received a very large number of 
applications from both States and communities to address either 
obesity through nutrition and physical activity strategies, or 
tobacco, or both. I wish I could provide you with details about 
how those applications are distributed. But we see those as the 
most promising investment in understanding what works at the 
community level And that this--in my testimony, I included an 
outline of the target behaviors and some of the strategies that 
we think are necessary to accomplish those changes. And those 
initiatives or those suggestions have been shared with the 
communities applying for these funds, and we expect those 
States and communities to implement these strategies. That will 
give us an opportunity to understand the intensity of the 
interventions necessary to control obesity and the combination 
perhaps of those interventions.
    Mr. Pitts. Thank you.
    Dr. Huang, in your testimony you mentioned the Envision 
Project, funded at $15 million. And the project aims to, quote, 
understand the complexity of the childhood obesity problem and 
virtually test environmental and policy interventions through 
computational systems models. Can you elaborate a little bit on 
that?
    Mr. Huang. Sure. So this is a very nice example of cross-
disciplinary--transdisciplinary research where those of us on 
the public health side have begun to learn a lot about methods 
used, for example, in engineering, in computer science, where 
computational techniques to integrate very, very large and 
complex sets of data simultaneously can be applied to very 
complex public health problems such as obesity. And as we 
mentioned here today, obesity results from a wide range of 
ideological factors, and research to date hasn't really been 
able to integrate all of that information simultaneously in 
analysis or design of interventions.
    So the idea of the Envision Project is to capitalize on our 
current computing power, to try to piece together the different 
aspects of the obesity puzzle; but, at the same time, to help 
us play with different intervention techniques that are perhaps 
expensive and difficult to implement because they are at a more 
macro-level, such as environmental modifications and policy 
changes--and to help us anticipate what are some of the 
intended and unintended consequences of those interventions in 
a virtual environment. And that information should provide 
great insight into what might be effective or not, and in what 
context, before we go out there and implement some of these 
large-scale interventions.
    So similar work has been done for example, in infectious 
disease areas. The U.S. Government already uses a lot of these 
systems models for the control of the flu epidemic, for 
example. And I believe that a lot of that work has been 
extremely insightful. And we anticipate a similar success with 
the Envision Project.
    Mr. Pitts. Thank you. My time has expired.
    Mr. Pallone. Thank you. We have 9 minutes left. So I want 
to get at least one more speaker in. And Mr. Murphy is next.
    Mr. Murphy of Connecticut. Thank you very much, Mr. 
Chairman. And thank you for this hearing. I think it is an 
incredibly important subject, having been chair of our State of 
Connecticut's Public Health Committee in the State legislature. 
We tried to deal with this issue on a number of levels, and I 
am glad to see some attention being focused here.
    Let me just open up one subject, knowing that we are short 
on time, and I will ask you both to comment on it. My district 
in northwestern Connecticut reflects the diversity of living 
patterns throughout this country. I have got quintessentially 
rural areas, I have got suburban areas, and then I have got 
some urban centers. And it strikes me that we need different 
tools and we face different challenges in each one of those 
settings.
    So I just want to ask you particularly about that urban 
setting and about the particular challenges presented to 
families and kids in urban centers where, even if you make a 
decision as a family to eat more nutritionally, you have a 
harder time finding that kind of food that creates the kind of 
nutritional lifestyle that we are putting forth with these new 
policies.
    And, second, with regard to exercise, kids are in schools 
that don't have fields. They have to travel a distance to find 
any type of open space to run around and play football and 
baseball on. And I wonder what you see as the particular 
challenges and maybe the particular policy responses that we 
need to attack some of the specific challenges that inner-city 
and urban kids are facing today?
    Dr. Dietz. In my testimony, I indicated the publication of 
an MMWR, Morbidity and Mortality Weekly Report, that we 
published in July which began to outline strategies for the 
implementation of better foods, increased physical activity in 
communities. One of the major problems which you have pointed 
to is access, and we think that programs like the Fresh Food 
Financing Initiative in Pennsylvania, which builds supermarkets 
in underserved areas, are a model that we ought to point to and 
try to implement more broadly.
    Access is also a factor affecting recreation facilities and 
parks for physical activity of children and adults. How one 
accomplishes that is less certain. And that is--again, I think 
the funds that we have through ARRA give us an opportunity to 
understand those challenges and the impact of making changes in 
those arenas.
    Mr. Murphy of Connecticut. So the problem is stop and shop 
at Whole Foods. They are not going to go into those areas 
because they just don't see a market for it. So you can either 
work over a period of decades to create the demand and hope 
that private sector capital follows demand to put those type of 
full-service grocery facilities in those neighborhoods. Or 
maybe you are suggesting, as Pennsylvania has done, you 
actually put some government money behind the financing of 
those inner-city fresh food facilities or full-service grocery 
facilities?
    Dr. Dietz. Right. I am not an expert on the Fresh Food 
Financing Initiative. I think it is a mix of private and public 
funds. But, yes, that can be done on a variety of scales. It 
can be done by putting a supermarket into an underserved area. 
And in New York City, Dr. Frieden had a Bodega Initiative, 
which provided loans or access to facilities for keeping fresh 
fruits and vegetables cold, implementing a low-fat or no-fat 
milk campaign in those stores. So there is--but what we don't 
understand yet is what the impact of those types of initiatives 
are on food quality and food intake.
    Mr. Murphy of Connecticut. Dr. Huang.
    Mr. Huang. I would just concur. And I think the Congressman 
points out some of the crux of what we are talking about in 
terms of really making the environmental changes that would be 
conducive to having people engage in healthier eating practices 
or physical activity. Without those options people can't have 
the full range of choices.
    I think that some of our recent research with NIH, CDC, and 
the Robert Woods Johnson Foundation and other funding 
organizations is hoping to evaluate the effectiveness of 
various community-level strategies.
    I mentioned earlier in my testimony that we are about to 
launch a nationwide evaluation with a nationally represented 
example of communities using different approaches. And 
hopefully in a few years we will have some good data to point 
towards what might be effective and what might be sustainable.
    And I think the sustainability aspect is a really key 
thing. And some of the things that we may need to do in terms 
of solution are putting in place the seed for long-term change. 
We are not going to solve the childhood obesity problem 
overnight. And I think we need to have our eyes set on a long-
term trajectory in putting in place measures that will get us 
to where we want to be down the road, not just for the current 
generation, but the for the next generation.
    Mr. Pallone. Thank you. Now, we have four votes. It will 
take us maybe a little more than half an hour, but we will try 
to get right back. And we still have some more questions of you 
before we go to the next panel. So the committee stands in 
recess.
    [Recess.]
    Mr. Pallone. The subcommittee hearing will reconvene.
    We go to the Republican side, Mr. Murphy of Pennsylvania.
    Mr. Murphy of Pennsylvania. Thank you, Mr. Chairman.
    Mr. Chairman, I ask that my testimony be submitted for the 
record on this.
    Mr. Pallone. Without objection, so ordered.
    [The prepared statement of Mr. Murphy follows:]******** 
COMMITTEE INSERT ********
    Mr. Murphy of Pennsylvania. I thank our panelists here. I 
have a couple of questions on your testimony. Thank you for 
that.
    One has to do with, Dr. Dietz, in your testimony, you talk 
about perinatal problems, infant mortality rates, et cetera, 
with this. Is this something that, given that, and also the 
comments you make later on or you made in other parts of your 
testimony about the increased cost of health care with obesity, 
are you aware of any studies done or studies that are planned 
on such issues as, for example, looking at our infant mortality 
rates and factoring in the issue of obesity as something we 
should be paying attention to?
    Dr. Dietz. No, we have not done that. The issue I am most 
aware of is less about infant mortality than infant morbidity, 
that we know that excessive weight gain during pregnancy, 
tobacco use during pregnancy and diabetes during pregnancy 
predispose to big babies, so there is likely an increased 
frequency of complications during delivery. There is early 
onset of obesity in children exposed in utero to those factors.
    Mr. Murphy of Pennsylvania. Given that, the other question 
I have for both you and Dr. Huang has to do with some insurance 
plans, some health insurance plans, actually offer differences 
in premiums and copay if people keep their weight within 
certain ranges and see their physicians, et cetera.
    Are either of you aware if there is any studies that talk 
about when those incentives are offered, changes in premiums or 
copays, based upon a person's weight within a certain range, if 
it makes a difference in their health and their morbidity 
rates, and, of course, ultimately also in their health costs?
    Dr. Dietz. I have some nagging thoughts that, yes, there 
are such data, but I can't call them to mind.
    Mr. Murphy of Pennsylvania. Is that something you could get 
for us?
    Dr. Dietz. Yes.
    Mr. Murphy of Pennsylvania. Dr. Huang, do you have any 
knowledge of studies in these areas?
    Mr. Huang. To my knowledge, NIH hasn't funded any studies 
with regard to that specifically, but perhaps our colleagues at 
AHRQ might have more data.
    Mr. Murphy of Pennsylvania. You can imagine how valuable 
that would be to this committee to know that information. So I 
appreciate that.
    The other area I wanted to ask about, there is so much of 
the testimony that we have heard also talks about nutrition. Of 
course, we hope people eat healthy. We talk about such things 
as activity and we hope they take advantage of activities, but 
we haven't talked about a requirement for activity.
    I am fascinated by some work that has been done in the 
Naperville school district. I don't know if you are aware of 
that. But they actually require an hour of activity every day. 
I think Illinois is the only State that requires a physical ed 
class. The rest of the States have dropped that. Many times 
States say we don't have the time to do this because we have to 
spend more time with math and reading, et cetera, to get the 
academic scores up.
    I find it interesting, they said that 97 percent of 
freshmen are at a healthy weight compared to the other things 
we see about young children. Students wear heart monitors 
during their gym class to make sure they stay at target heart 
rates. They are allowed a wide range of activities. It isn't 
just dodge ball with the big kids where they can stand at their 
side. Also they perform in the top 10 in the world on 
standardized math and science tests, a fascinating link there.
    I wonder if you two could comment on other studies we might 
learn from. Or jumping to the next level, should we require 
students to take gym class, or at least educate our school 
systems around the country of the value of that?
    Dr. Dietz?
    Dr. Dietz. Well, there are two very important benefits of 
physical activity and obesity prevention and control. One of 
the benefits is that physical activity reduces the risk of co-
morbidity. So that if you are overweight and have elevated 
blood pressure and are inactive and become active, your blood 
pressure will positive. Similarly for lipids, similarly for 
glucose tolerance. So when one begins to talk about health at 
any weight, which is an important concept because not everybody 
can lose weight, physical activity is one of those important 
strategies.
    The second benefit is one you alluded to. We published a 
study 2 years ago showing that physical activity improved test 
performance in younger children. And anecdotally, at least, 
teachers say that physical activity also improves behavior. So 
the irony is at a time when schools are vesting themselves of 
physical education programs because of the no child left behind 
program, they may be throwing out one of the most important 
programs to improve test scores.
    The third comment is that in Pinellas County in Florida, 
they have developed an integrated program that focuses on 
physical activity, both in child care and in elementary 
schools. Whether it is going to have the same results as those 
in Naperville remains uncertain, because Naperville has just an 
extraordinary program, as you correctly point out.
    Mr. Murphy of Pennsylvania. Dr. Huang, any comments on 
that?
    Mr. Huang. I concur with Dr. Dietz's comment. There is 
definitely research linking physical fitness with better 
academic outcomes, so I am in concurrence with that.
    Mr. Murphy of Pennsylvania. I hope that is another area you 
can get to the chairman so he can distribute it to the 
committee. It is very valuable to us to do that, because it is 
not one of those things that costs a lot, to keep kids active, 
and the outcome in grades is huge. And I hope more schools pay 
attention to this. I hope the word gets out.
    Dr. Dietz. Just to be certain, you are asking about the 
study----
    Mr. Murphy of Pennsylvania. If you are aware of some other 
studies that talk about basically overweight, underactive 
underachievers, versus getting kids involved again.
    Thank you very much. I yield back, Mr. Chairman.
    Mr. Pallone. Thank you. Next is the gentlewoman from 
Florida, Ms. Castor.
    Mr. Castle. Thank you, Mr. Chairman.
    Dr. Huang, as both you and Dr. Dietz have testified, 
childhood obesity is an epidemic affecting all children 
regardless of race or where they come from or their 
socioeconomic status. However, we can't ignore the fact that 
childhood obesity disproportionately impacts racial and ethnic 
minorities.
    I wonder, given that TV viewing paired with advertising is 
a major contributor to childhood obesity--I mean, there is 
still a breakfast cereal that is cookies, right? I am curious 
if research has revealed that disparity in marketing of 
unhealthy foods to racial and ethnic minority children?
    Mr. Huang. Yes, there is. I believe that there was just a 
press conference this past Monday by Children Now releasing a 
couple of studies showing that there is disproportionate 
exposure among minority children to advertising for foods that 
may be nutrient poor but energy dense. The Institute of 
Medicine has also released a report in recent years indicating 
how exposure to advertising leads to or influences consumption 
of different kinds of foods.
    So I think the research is pretty strong, indicating at 
least a link between food consumption, dietary behavior and 
exposure to advertising. So I understand that right now there 
is an interagency group looking at these issues, and I believe 
that results from some of those dialogues should be 
forthcoming, and we look forward to looking at FTC statements 
on nutrition standards for advertising and collaborate with 
them in appropriate ways.
    Maybe Dr. Dietz has other comments with regard to CDC's 
involvement in that.
    Dr. Dietz. Terry is absolutely correct that there are 
disparities, both in terms of the amount of television viewed, 
which tends to reflect the differential prevalence rates in 
children as well as differences in the type of advertising that 
is directed towards minorities.
    Yesterday, we released a report, the FTC released a report 
that CDC, FDA and USDA were a part of, which began to set 
advertising standards for foods advertised to children in the 
media. Those were the product of a lot of hard work by this 
working group to base these standards in a very transparent way 
on prior recommendations, as well as what was optimal for the 
health children. And we have asked industry to respond to those 
standards and let us know how those standards would affect 
their current products and those products advertised on 
children's television.
    Ms. Castor. Are there any insidious ways other than the 
research on prevalence of TV viewing and things like that, but 
have you come across those insidious marketing practices that 
are targeted specifically to minority children, or is it really 
across-the-board and then the prevalence impacts the obesity 
rates?
    Dr. Dietz. I don't know the answer to that question.
    Ms. Castor. I will yield back, Mr. Chairman.
    Mr. Pallone. Thank you.
    The gentleman from Georgia, Mr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    Dr. Dietz, Dr. Huang, thank you for being with us today and 
testifying. I want to ask kind of almost a rhetorical question. 
We are going to be hearing from a second panel, and I guess 
there are five or so individuals on that panel. I have read 
most of the testimony and I am looking forward to actually 
hearing from the American Academy of Pediatrics.
    In that testimony, there was a recommendation for a real 
comprehensive approach toward solving this problem. In fact, 
they say, the pediatrician is going to testify that to solve 
this problem, you need a medical home, you need the medical 
disciplinary care of pediatricians, subspecialists, surgeons, 
nurses, dieticians, mental health professions, exercise 
specialists, school staff and social workers.
    I am not disagreeing necessarily with that, and I do think 
that this is a significant problem that we need to try to 
address in the most cost efficient way. But when you get too 
comprehensive, of course, every one of these people have to be 
paid and they are going to be expecting to be paid. But, you 
know, we have a limited amount of money. We have been talking 
about that for the last almost year as we debated this 
comprehensive health insurance reform plan and how to spend the 
dollars effectively.
    I don't know that there is a silver bullet, but if there is 
an arrow or two in the quiver that is sharper than the rest of 
the pack, I think we should use it.
    So my question is this: How important do you think the role 
of parental behavior is in regard to the problem of childhood 
obesity? Could you give it a percentage? I know we are talking 
about genetics and environment and lack of ability for the 
children to exercise and too much television, et cetera, et 
cetera, et cetera. But, of course, they are eating at the same 
table, for the most part, with the parents, and there is a lot 
of learned behavior here.
    Comment on that, both of you, if you will.
    Dr. Dietz. That is a hard question to assign a percentage, 
because there aren't, as you point out, genetic determinants or 
genetic susceptibility. But those genetic elements that 
increase susceptibility are acted upon by an environment. 
Certainly the first environment and one of the most important 
that young children live in is the home, and there is no 
question that parents can play a significant role and do play a 
significant role in the types of foods their kids eat, the 
access or utilization of physical activity facilities, and 
screen time, all of which are significant risk factors.
    But in many cases, although we would like parents to make 
the right choices, they don't have the right choices to make, 
and that opens up a broader environmental issue. For example, 
you can't very well expect an inner-city parent who livers in 
an unsafe neighborhood allow their children to go out and play. 
You can't very well expect somebody to increase their fruit and 
vegetable intake if they don't have access to supermarkets or 
farmers markets that provide those.
    Frankly, I don't think we have a good way of accessing 
parents in a way that fosters behavior change.
    Dr. Gingrey. Dr. Dietz, I understand that. I don't mean to 
cut you off. I want to hear from Dr. Huang. I had one follow-up 
real quickly, if I have time. Dr. Huang?
    Mr. Huang. There is no question that parents play an 
important role. But as Dr. Dietz pointed out, parenting and 
parents' behavior do not occur in isolation. So, providing the 
environment that would be conducive to having parents engage in 
the behaviors that we want them to engage in I think would be 
really critical.
    We have spent years in doing research trying to tell 
parents to get their kids to eat better and get their kids to 
exercise. Even if we might be effective in changing some of 
those behaviors in the short-term, we are not able to sustain 
those behaviors over the long term, and I think the precise 
reason is because behaviors occur in context.
    Dr. Gingrey. I want to thank you. In the few seconds I have 
left, I would like to make this comment, Mr. Chairman.
    When we marked up H.R. 3200 then, which became H.R. 3962, 
our health care reform bill, there was an amendment made to 
suggest that employers should be able to incentivize their 
employees for healthy behavior, stop smoking, lose weight, 
exercise, and in return a premium reduction, kind of a reward 
to get people to buy into that. Of course, the payback for the 
employer was better attendance, better workers, a better 
skills, less accidents in the workplace, and apparently HIPAA 
limits the amount of reduction in premium to 20 percent.
    Now, in the bill, I think we did raise it to 30 percent, 
maybe 50 percent even on the Senate side. But the Secretary of 
Health and Human Services would have to approve those type 
programs. I know you don't have time to respond, but I think 
this is a good thing that we ought to continue to stress and 
push. Because if these parents get healthy at work, they are 
going to come home and pass that on to their children.
    Mr. Chairman, thank you for your indulgence, and I yield 
back.
    Mr. Pallone. Thank you.
    The gentleman from Maryland, Mr. Sarbanes.
    Mr. Sarbanes. Thank you very much, Mr. Chairman.
    This is a very important hearing. This is one of the most 
important hearings I think we have had in this committee all 
year. You have heard the discussion. So much of it is focused 
on our young people and developing in them the right kind of 
lifestyle habits so that they can improve their health over the 
course of their lives.
    I wanted to just mention a couple of pieces of legislation 
that I have been involved with that I think are very much on 
the mark with some of the testimony we have heard today.
    The first is something called the No Child Left Inside Act. 
It is a little bit of a play on words. We have No Child Left 
Behind. But it is the idea of trying to promote more 
opportunities for environmental education and the integration 
of outdoor learning experiences and education into the overall 
instructional program across the country. It would encourage 
States to establish environmental literacy plans, which is sort 
of their vision to how to make sure when children graduate from 
high school, they have had some baseline exposure to the 
environment and have incorporated these experiences in.
    It is based on research, and we have heard some of this 
already today, but research that indicates that these days, the 
average young person is spending 4 to 5 hours a day inside on 
video games, television and the Internet, and about 4 minutes a 
day in what we would say is outdoor, unstructured recreation.
    We have gone from a generation where your mother had to 
keep calling you in for dinner, to where parents, albeit 
dependent on the tinge environment or neighborhood they are in, 
are trying to push their kids more outside because they seem to 
be spending all their time on screen time. And we have got to 
get back to a balance.
    So that is one legislative vehicle, to try to bring more 
attention to this need for a balance.
    The other is something called the Foundation For a Fit 
Nation. There is a council, the President's Council on Physical 
Fitness, that was established under President Eisenhower and 
then President Kennedy expanded its charge, that focuses on 
physical fitness and tries to keep that kind of high profile. 
But it is currently unable to raise private funds to support 
its mission. So this bill would actually create an opportunity 
for that, to support its activities.
    I think it gets about $1.2 million a year now directly in 
appropriation, but could certainly do much more if it had 
support from the private sector.
    So all these things are designed to bring more attention to 
the issue that you are describing.
    I had two questions: One relates to each of those. We have 
heard about how this problem of obesity, and I want to focus 
particularly in on childhood obesity, can be affected by a 
combination of diet/nutrition, genetics to some degree, the 
environment, and then the amount of exercise.
    As you think about those components, and maybe others, do 
you have a kind of, in your own mind, do you prioritize one 
over the other? Do you find them so inextricably linked to one 
another that it is unuseful to do that, or do you say we can 
make huge strides at very little cost arguably if we just 
improve the kind of exercise component?
    So if you could speak to that. Then I have one other quick 
question.
    Dr. Dietz. I think both are equally important for different 
reasons. I think that dietary intake is critical in the 
prevention and even more important in the treatment of 
childhood obesity, reductions in dietary intake. But physical 
activity has an important role in reducing the morbidities 
associated with obesity, like elevated cholesterol or lipid 
levels, blood pressure and glucose tolerance. So I don't think 
you can separate those. I think they are both essential and 
have different effects on obesity and its outcomes.
    Mr. Huang. I would just add, I think it is important to 
note that the environment enables or constrains behavior, such 
as diet, such as physical activity. We have done research for 
so many years now that are targeted solely at the individual 
level with very little promising and sustainable results. So I 
think if we are truly going to make a dent on this problem with 
the population level, we really need to begin addressing the 
environment more aggressively.
    Mr. Sarbanes. I have got 8 seconds. I will just close with 
a comment. Representative Gingrey talked about the importance 
of parental leadership in this effort. I think there is real 
opportunity for partnership between parents and schools to 
begin to emphasize this.
    I remember a young man. I was on a field trip with some 
youngsters to illustrate the importance of this No Child Left 
Inside effort, and he talked about how because of some of the 
activities at school that they had begun we they would get out 
into nature and do these walks and so forth. He had convinced 
his parents on the weekends to go every Saturday morning to do 
a two to three hour walk with the family. The parents are often 
guided in their priorities for leisure time by what their 
children want, if not always. So I think you can get this 
partnership working in a very productive fashion.
    I yield back my time.
    Mr. Pallone. Thank you.
    The gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I apologize for not 
being here for opening statements. But I appreciate this panel 
and I appreciate the second panel that will be in.
    My first question would be, what role does genetics play in 
this whole debate?
    Dr. Dietz. It is a significant role and it influences 
susceptibility, but I don't think that we can point to genetics 
as the factor which accounts for the----
    Mr. Shimkus. The primary factor, but it could be 
contributing based upon the family.
    Dr. Dietz. Yes.
    Mr. Shimkus. Dr. Huang?
    Mr. Huang. I agree. The human genome hasn't changed over 
the last 50 years, yet the obesity rate has skyrocketed.
    Mr. Shimkus. Those folks who are predisposed based upon 
their genetic makeup probably have to put even more of a focus 
on the basic issue. My frustration is I am kind of like Dr. 
Gingrey. I am a family individual. I think parental 
involvement--you know what these kids need? They need a good 
health instructor, they need good food in the schools, and they 
need a good gym teacher. That is what they need.
    We can have all the dang Federal programs we want. But the 
micromanagement, that is why I appreciate what the NFL is 
doing. We have to educate these people. If is it is calories 
in, calories out. You don't gain weight if you burn more 
calories than you consume. Is that correct?
    Dr. Dietz. Yes.
    Mr. Shimkus. Dr. Huang?
    Mr. Huang. That is true.
    Mr. Shimkus. So it is an issue of educating people. I am a 
big man. I am a number one, extra value meal, Big Mac drive-
through guy. I have my Hershey bar and my diet coke. This is 
for my mental health. But I will also go down to the gym and 
work out as long as I can, get to it for maybe an hour to 90 
minutes. And I will burn those calories.
    So I am concerned that as we pile upon big government to 
try to micromanage the roles of the family and the roles of 
primary education in this country, we ought to be incentivizing 
them to do the right thing and encouraging them.
    It is not rocket science. It is calories in, calories out. 
You burn more calories, you don't gain weight. If you are 
genetically predisposed, you have to work harder. If you are 
genetically predisposed to high cholesterol, you have to then 
focus more on diet.
    But don't make this any harder. Please don't have the 
Federal Government rules and regulations. Let's just empower 
the local communities to get into their local public school 
systems and say, please diet, exercise, healthy foods.
    I appreciate your time, and I yield back.
    Mr. Pallone. Thank you. The gentleman from Iowa, Mr. 
Braley. Your State is the only one that has a physical ed 
requirement, apparently.
    Mr. Shimkus. We have a statewide requirement, Chairman.
    Mr. Braley. I want to talk about that, because as I have 
been talking about health care for 3 years, I remind everybody 
that health care is not a disease treatment response; that if 
we gut funding for our physical education programs in our 
schools and if we try to impose a 1950s era physical education 
curriculum on today's youth, we are going to be drastically 
failing our responsibility to them.
    Do you both agree with that?
    Mr. Huang. Yes.
    Dr. Dietz. Yes.
    Mr. Braley. Because when I was growing up in the sixties, 
we ate Sugar Smacks, which had 56 percent sugar in them; Sugar 
Frosted Flakes, Sugar Pops, Supper Sugar Crisps, and I remember 
looking around my classroom and there may be one or two kids in 
a class of 30 during the baby-boom era who were considered 
obese. And I think if you looked at caloric intake back then, 
we probably had a higher caloric intake per capita than 
students today do. But we also were getting more healthy food 
in some base on a daily basis and we spent all day outdoors.
    Yet the harsh reality is as parent who had kids growing up 
in the nineties, most parents are faced with very different 
choices than our parents did, where you had a mother in many 
cases living at home and monitoring the behavior of children, 
and children who were faced with much fewer threats out in the 
world that allowed them to spend all day outdoors the way we 
did as kids.
    So my question is, how do we get society to focus on the 
challenges of providing lifestyle physical education in our 
schools on a daily basis, that gives them not just dodge ball 
skills, but things that teach them aerobic activities they can 
carry throughout their lives, and how do provide the type of 
informed nutrition labeling at the point where they are 
consuming food in the schools, which is our best place to reach 
them outside the home, to give us a realistic chance of bending 
this curve of upward juvenile obesity downward?
    Dr. Huang?
    Mr. Huang. Well, I agree with your points completely, and I 
think, actually, the points consistent of the Congressman from 
Illinois with our message today. Providing good gym teachers or 
providing good food in schools, those are part of the changes 
in the environment that we are talking about today to make it 
possible or easier for parents and kids to engage in the right 
behaviors.
    With regard to your point specifically, we do have I think 
emerging trends, for example in urban planning, creating more 
opportunities within urban environments for physical activity, 
whether it is physical activity engaged going back and forth 
between public transportation and schools or work, or new 
building designs, like in New York City, for instance, putting 
in--looking at design of staircases, looking at different 
building codes, having playgrounds nearby new housing 
developments, et cetera. We are going to care more about 
activities with regard to reintroducing healthy food access to 
some of the neighborhoods around the country.
    So I think there are promising strategies that are 
consistent with our modern life. But it is really important to 
know that we can't just keep telling children and parents that 
you have to eat better, you have to exercise. We have to create 
a larger context to make those behaviors possible.
    Mr. Braley. Dr. Dietz, before I get to you, I want to frame 
this a little differently. One of the things we know is kids do 
behave differently today. Many of them are focused on access to 
computer games, the Internet, and they are stimulated 
differently than we were when we could go outside and hang out 
with our friends all day long without having to be indoors.
    So what I am interested in is how you take technology like 
Wii Fit activity, or some of the other computer games that 
require physical activity, and how you use those to motivate 
kids to get more engaged, realizing you have got a much more 
difficult challenge with today's generation of young children 
to get them to exercise than we did in the past.
    Dr. Dietz. Yes. One example of where that has been done is 
in West Virginia where they introduced Dance Dance Revolution 
in their schools. I think that that is an important example and 
opportunity. And I think we need a lot more experience. As 
adults, we tend to prescribe to children what we think is 
appropriate.
    Mr. Braley. Like dodge ball.
    Dr. Dietz. Right. But I think kids have a better idea of 
that, and we need to invest much more strongly in understanding 
what they would like to do and how to meld the electronic media 
and environment with the physical activity environment.
    Mr. Braley. But the key is to get them moving.
    Dr. Dietz. Absolutely.
    Mr. Braley. Thank you.
    Mr. Pallone. The gentleman from Illinois, Mrs. Schakowsky.
    Ms. Schakowsky. Thank you. I apologize for not being here 
for your testimony in the opening statements.
    A couple of points I wanted to make. Earlier this year, 
along with Dr. Burgess, we introduced H.R. 2354 called the 
Health Promotion First Act. I hope you will take a look at it. 
The goal of the bill is to identify ways to help people develop 
and maintain healthy lifestyles, promoting the kinds of living 
and working environments to encourage people to eat right, to 
be physically active, to adopt behaviors that improve their 
health.
    Our bill, I think, takes innovative approaches of requiring 
collaboration across agencies to identify what the best 
practices and effective strategies for health promotion would 
be. So I hope you will take a look at it.
    The other thing I wanted to tell you is last week I met 
with a woman, her name is Rochelle Davis, and she is executive 
director of the Healthy Schools Campaign in Chicago. She has 
developed, along with the public schools, a collaboration on 
school lunches. The Chicago public schools want to be early 
adopters of the Institute of Medicine recommendation changes in 
school meals that require more, like way more, vegetables and 
fruits and whole grains. But, unfortunately, current USDA 
standards prevent that.
    So I think one of the goals we have to have is look at the 
policies that exist right now and identify some of the barriers 
that we have to actually adopting some of the strategies that 
we actually no will work.
    We want to encourage States and localities to be 
innovative. I just went to my grandchildren's school and looked 
at the school lunch program. They actually happen to have a 
kitchen, so they can do more innovative things. But fewer and 
fewer schools now have their own kitchen, so we are looking 
more at the central delivery places, what kind of work that 
they are doing.
    Parents, I think, actually are getting more involved than I 
remember in what the school lunch programs look like, at least 
in my district, and I am very, very encouraged by that. And I 
think once they figure out some programs that are cost-
effective, because always cost is an issue, that we can promote 
those.
    But I wondered if you could talk a little bit about the 
barriers that we have existing right now in our Federal 
regulations that might prevent these kinds of things from being 
adopted?
    Dr. Dietz. Certainly the existing policies that govern 
school meals are a concern, and I think that there is a lot of 
interest in the child nutrition reauthorization bill. And in 
conversations that we have had with the USDA, there is great 
interest on their part in moving forward.
    Another important program, which is not in schools but has 
an equal impact in child care settings, is the child and adult 
care food program, the recommendations of which are under 
review by the Institute of Medicine. I think a report is 
forthcoming in 2010, and the hope is I think on USDA's part 
that that will help change the face of child nutrition in 
schools.
    Ms. Schakowsky. Do you want to add anything, Dr. Huang?
    Mr. Huang. Well, incidentally, I just met with Dr. Thorn, 
the Deputy Under Secretary of nutrition from USDA yesterday, or 
2 days ago, and I know they are paying close attention to the 
new IOM recommendations. So I agree with you.
    Ms. Schakowsky. You know, I did the food stamp challenge, I 
don't know if it is last year now or 2 years ago--2 years ago. 
This was before the food stamp program got more funding. It was 
$1 a meal essentially, $3 a day. By the time I got to the 
produce section, fruits and vegetables, there was essentially 
no money left. I think I got one tomato for the week and a 
couple of bananas or something.
    So, again, I think that we want, especially since the new 
information on how many people rely on food stamps in this 
country--what do we call it now?
    Dr. Dietz. SNAP program, Supplemental Nutrition Assistance 
Program.
    Ms. Schakowsky. SNAP program, which is better than ``food 
stamps,'' which don't exist anymore, thankfully. But we have to 
provide the avenues for people. It is nice to say that families 
are supposed to do this and they should have healthy food. If 
you can't afford to buy those healthy foods, it is not going to 
happen. Any comments on that?
    Mr. Huang. Right. I concur. I think my colleagues from USDA 
told me they are trying to work with $1.25 per meal. That is 
kind of their budget with the school meals. So your point is 
very well taken. I think it is very consistent with our message 
today.
    Ms. Schakowsky. I yield back. Thank you.
    Mr. Pallone. Thank you. I think that completes our 
questions for this panel. There is just so much more to delve 
into. We are spending our time today, what little time we have, 
in trying to delve into some of these concerns. But I know 
there is a lot more we have to do. But I do appreciate your 
input. We may have some additional questions that the Clerk 
will send you within the next 10 days or so as follow up.
    Thank you very much.
    I would ask the second panel to come forward.
    Let me introduce our second panel. Starting on my left is 
Ron Jaworski, who is with the Jaws Youth Fund and the National 
Football League Play 60. These are both organizations that you 
either started or have been involved with. Thank you for being 
here today. We appreciate it.
    Dr. Sandra Hassink, who is chair of the Obesity Leadership 
Workgroup for the American Academy of Pediatrics.
    Jeremy Nowak, Ph.D., President and CEO of the Reinvestment 
Fund.
    Mary Sophos, who is Senior Vice President of Government 
Affairs for the Grocery Manufacturers Association.
    And Dr. Risa Lavizzo-Mourey, who is a doctor and President 
and CEO of the Robert Woods Johnson Foundation.

STATEMENTS OF RON JAWORSKI, JAWS YOUTH FUND, NATIONAL FOOTBALL 
LEAGUE PLAY 60; SANDRA HASSINK, M.D., CHAIR, OBESITY LEADERSHIP 
WORKGROUP, AMERICAN ACADEMY OF PEDIATRICS; JEREMY NOWAK, PH.D., 
PRESIDENT AND CEO, REINVESTMENT FUND; MARY SOPHOS, SENIOR VICE 
     PRESIDENT, GOVERNMENT AFFAIRS, GROCERY MANUFACTURERS 
ASSOCIATION; RISA LAVIZZO-MOUREY, M.D., AND PRESIDENT AND CEO, 
                ROBERT WOODS JOHNSON FOUNDATION

    Mr. Pallone. I appreciate all of you being here. I know you 
have innovative ideas about how to deal with some of these 
childhood obesity problems. Each of you have been renowned, if 
you will, in your own sphere in dealing with that.
    As I mentioned to the first panel, you each should give a 5 
minute opening statement and then we will have some questions. 
We will start with Mr. Jaworski.


                   STATEMENT OF RON JAWORSKI

    Mr. Jaworski. Chairman Pallone and members of the 
Subcommittee on Health, it is great to be with you here this 
morning. Good morning, everyone. I am having so much fun here 
this morning, I may hang around and cover a football game on 
Monday night. Why not? It has been a great stay thus far.
    I really want to thank you for the opportunity to testify 
on an issue of great, great importance to me, to my Foundation 
and to the National Football League, the epidemic on childhood 
obesity. I am proud to testify before you today in two 
capacities.
    First, I represent the United Way Jaws Youth Fund, a 
partnership my family created more than 10 years ago with the 
United Way of Camden County, New Jersey. Through the United Way 
Jaws Youth Fund, I am proud to have delivered close to $3 
million to more than 70 nonprofit organizations providing 
service to children ranging from ages 7 to 18.
    In addition, I am also testifying on behalf of the National 
Football League and its signature community relations 
initiative, the Play 60 campaign. Launched in 2007, the Play 60 
campaign is a national youth health and fitness campaign 
focused on increasing the health and wellness of young fans and 
combating childhood obesity by encouraging youth to be active 
for at least 60 minutes a day.
    Mr. Chairman, the facts surrounding childhood obesity in 
this country are startling. They are startling. Nearly one in 
three children and teens in the U.S. are obese or overweight. 
That is one in three. More than 23 million youth, that is 23 
million, are obese or overweight. Startling numbers. In the 
last two decades, the rate of overweight children has doubled.
    We know that youth who are overweight or obese are more 
likely to have health risk factors associated with 
cardiovascular disease, such as high blood pressure, high 
cholesterol and type 2 diabetes. In contrast, he benefits of 
good health translate to the classroom, where studies show that 
fit students are less likely to have disciplinary problems. 
Healthy students also perform better on standardized tests.
    It is possible that these facts, while shocking, should not 
come as such a surprise when we consider that more than 60 
percent of children ages 9 to 13 do not participate in any 
organized physical activity during non-school hours. The number 
of idle children is increasingly significant when schools 
around the country find it challenging to offer physical 
education classes. Sadly, very sadly, 50 percent of the schools 
do not provide physical education in grades 1 through 5. Even 
more startling, 75 percent do not provide physical education 
for grades 6 through 8.
    This is not a new issue for me, unfortunately. Mr. 
Chairman, you may remember back in 1989, the New Jersey public 
schools were considering eliminating physical education 
classes. I was very proud to lend my voice, along with at that 
time physical fitness guru Pat Croce, who became the 
Philadelphia 76's president and part owner, along with Ed 
Solomon, a legislator in New Jersey, and we defeated that 
proposal. We were successful, and physical education remained a 
requirement in New Jersey public schools. It is amazing, here 
we are 21 years later still talking about the same things.
    I am pleased to also announce that I will be joining the 
United Way's National Board in 2010. Last year, the United Way 
system established a 10-year health goal to increase by one-
third the number of youth and adults who are healthy and 
avoiding risky behavior. In order to achieve its 10-year health 
goal, the United Way has made combating childhood obesity a 
priority which requires the resources and commitment of all of 
us working together.
    One of the best examples of the type of health and wellness 
activity that the Jaws Youth Fund supports is Steve's Club in 
Camden, New Jersey. In addition to being the most dangerous 
city in the country, Camden's childhood obesity rate is a 
staggering 60 percent. The United Way's Jaws Youth Fund is 
proud to help fund Steve's Club, an organization that provides 
fitness training to Camden kids, giving them a place to get 
their bodies healthy and stay off the streets.
    This young man that is joining me here today, Jose 
Henriquez is a former gang member turned fitness guru. It is a 
great story, a great story to be told. Jose has been working 
out of Steve's Club for years. He recently turned 19 and 
received his official personal trainer certification. He trains 
kids in the club. He visits kids in Camden schools. The Jaws 
Youth Fund even bought a van for him so he could drive around 
and sell fitness to the kids in Camden, and, trust me, they 
need it. A real good friend of his through the great leadership 
and inspiration of Jose lost 50 pounds. There is a real example 
of the good work being done in our community.
    I can give you a number of anecdotes and great stories. I 
don't know if it would be boring. Maybe there will be another 
time I can give you more of those.
    But on a broader scale, I would like to discuss the NFL's 
Play 60 initiative, a fantastic program, and describe for you 
some of the terrific work they and all of the member NFL clubs 
do in our community.
    Play 60 is a multi-disciplinary campaign that addresses the 
issue of childhood obesity through the national outreach and 
online programs as well as grassroots initiatives implemented 
via the NFL's in school and after school and team-based 
programs, and the players and leadership of the NFL does a 
magnificent job.
    NFL Play 60 was designed to build on the league's and 
teams' longstanding commitment to health and the fitness. The 
NFL decided to focus on the issue of childhood obesity because 
it recognized not only the public health crisis facing our 
Nation, but also the NFL's unique place in our culture and its 
ability to influence attitudes and behaviors, especially among 
young people.
    Since the inception of Play 60 in 2007, the NFL has 
committed more than $200 million to youth and health fitness 
through media time, PSAs, programming and grants. They put 
their money where their mouth is. This year alone, more than 
700 events have been hosted by all 32 national football team 
who implement Play 60 in their local markets.
    NFL Play 60 is supported year-round by many of the NFL's 
most prominent players, including Drew Brees, Eli Manning, 
DeMarcus Ware, Jason Witten and Troy Polamalu, who donate their 
time to help the program.
    NFL Play 60 promotes the importance of getting 60 minutes 
of physical activity per day. That is it, 60 minutes. Just give 
us 60 minutes. Kids are encouraged to find their own ways to 
get active, whether it is taking advantage of the local 
playgrounds which have been rebuilt, playing four-square in the 
school yard, or just walking around with some friends having 
some fun. Play 60 represents organized sports, including youth 
football, as a very good way to get active, but certainly not 
the only way.
    Another story. Through the league's Play 60 Super Bowl 
Contest, 12-year-old Jared Doutt from Erie, Pennsylvania, took 
his family to Arizona for the Super Bowl 2 years ago. He 
enjoyed the experience and delivered the football for the 
kickoff.
    When he went home, he went back and started working outside 
on a regular basis. His sister also plays soccer and he coaches 
the soccer team after school. Great real life stories.
    The Super Bowl contest is only one way the NFL is involved. 
With South Florida hosting the Super Bowl this year, the NFL is 
asking all of its star players, because the Pro Bowl will be 
there--I will get a plug, I will be covering the Pro Bowl, I 
will get a plug in for that--we will be covering the Pro Bowl, 
and we will be out in the community. I will be out in the 
community with the pro bowl players, the elite players of the 
National Football League, surrounding Miami and all of the 
communities in the area, promoting how important it is. I look 
forward to participating in that blitz and being part of such 
an exciting projects. This is just an illustration of the great 
work being done by the NFL in this area.
    Obviously, I have attached some testimony in here, 
descriptions of some of the other programs that are involved 
where the National Football League. But, Mr. Chairman, I do 
want to commend you and this subcommittee for holding this 
hearing and focusing congressional attention on this very vital 
public issue. I certainly do look forward to being with you 
again, and whatever I can do to move this forward, I will be 
there.
    Thank you.
    Mr. Pallone. Thank you. Thank you, Mr. Jaworski. I 
appreciate it.
    [The prepared statement of Mr. Jaworski follows:]******** 
INSERT 2-1 ********
    Mr. Pallone. Dr. Hassink.


               STATEMENT OF SANDRA HASSINK, M.D.

    Dr. Hassink. Well, good morning, and thank you. I 
appreciate this opportunity to testify today on childhood 
obesity, and I am proud to represent the American Academy of 
Pediatrics. Allow me to share with you a story.
    Janie is a 9-year-old patient of mine in our obesity 
clinic. When she first came to us, her BMI was 35, that means 
her weight was about 150 pounds, and she was not doing well in 
school. As we talked, I learned a number of things about this 
little girl's life and health habits.
    Janie told me she did not eat breakfast. She had lunch at 
school, but bought extra snacks. After school, she would have 
cookies at her grandma's House and was drinking six cans of 
soda and several glasses of juice a day.
    Janie did her homework at her grandmother's house, but she 
didn't go outside often because her neighborhood wasn't safe. 
She was having 5 to 6 hours of screen time each day and she 
went to bed around 11 o'clock while watching TV in her room.
    She has physical ed in school only one day a week, and she 
had to use her asthma inhaler often, so exerting herself was 
uncomfortable for her. She was being teased and bullied by some 
of her peers, which made her unhappy and caused her school work 
to suffer.
    How do we help a child like Janie? First and foremost, we 
must recognize there is no single factor responsible for 
obesity in a case like this. Obesity, in the end, is the result 
of a complex interplay of different issues. Any solution must 
therefore be equally complex and multifaceted.
    Davidson and Birch describe the socioeconomic model obesity 
which illustrates the many factors that impact weight. The 
concentric circles of this model show the issues related to the 
individual, family, community and larger social structure that 
either promote or inhibit good nutrition, physical activity and 
overall health. Any meaningful attempt to stem the rising tide 
of obesity must address many of these issues simultaneously 
over a prolonged period of time in order to produce sustainable 
change.
    The health care community is currently engaged in a race to 
learn what types of intervention we can employ in medical 
practice to reduce pediatric overweight and obesity. A number 
of common elements among successful interventions have begun to 
emerge.
    The medical home. Every child must have access to a medical 
home that will provide continuity of care and coordinate the 
services received from various sources. Without a medical home, 
the child and family receive fragmented and inconsistent advice 
and services. In the case of obesity, where progress must be 
tracked methodically and longitudinally, a medical home is 
critical to the success of any health care intervention.
    Levels of care. The Expert Committee on Obesity in 2007 
recommended that patients have access to four levels or stages 
of care explained in my written testimony. These stages of care 
allow health care practitioners to tailor their approaches to 
the child and family based upon their current health status, 
readiness to change and other special needs. Public and private 
health insurers must provide appropriate payment based upon the 
complexity of the child's case and the level of service 
required.
    Family center care. Successful interventions cannot focus 
upon the child to the exclusion of the rest of the family. 
Children have limited control over the foods they eat or are 
served, the amount of physical activity in which they engage, 
and other key factors that determine their health. The 
engagement of the entire family and behavior change is critical 
to the success of a practice based intervention.
    While practice based interventions are a vital tool, we 
must also recognize that health is profoundly affected by the 
community in which a child lives. Without equal attention to 
community-based policy interventions, practice-based approaches 
have a much-reduced likelihood of success.
    Child nutrition programs. Federal child nutrition programs 
should require all participating schools, child care providers 
and other institutions to follow the dietary guidelines in 
serving meals and snacks to children. The Secretary of 
Agriculture should have authority to regulate competitive 
foods. The AAP strongly supports the recent updates to the WIC 
food packages and breast feeding promotion, which is an 
important component of establishing good nutrition and 
appropriate feeding habits at the beginning of life.
    The reinstatement of compulsory daily quality physical 
education classes is vital to children's health and can also 
impact their ability to learn in the classroom. Screen time for 
children should be limited to less than 2 hours a day.
    Our physical environment, the built environment, determines 
to a large extent how children travel, move and play. Modern 
communities have been created for cars, not children. The AAP 
has issued recommendations for the design of communities to 
provide healthy active living.
    Sugar sweetened beverages are a significant source of empty 
calories in many children's diets. The AAP recommends 
eliminating sweetened drinks in schools and strictly limiting 
soft drinks and fruit juice in children's diets. The AAP also 
supports taxation of sugar sweetened beverages as an method of 
both reducing consumption and raising revenue for other 
children's health priorities.
    Finally, the AAP supports a ban on junk food advertising 
during programming that is viewed by young children and calls 
upon Congress and the FCC to prohibit interactive advertising 
to the children.
    Children and families deserve all the help we can give them 
in combating this epidemic. I thank you, Mr. Chairman, for this 
invitation, and look forward to your questions.
    Mr. Pallone. Thank you, Dr. Hassink.
    [The prepared statement of Dr. Hassink follows:]******** 
INSERT 2-2 ********
    Mr. Pallone. Dr. Nowak?


                   STATEMENT OF JEREMY NOWAK

    Mr. Nowak. Thank you, Mr. Chairman. Distinguished members 
of the Subcommittee on Health, thank you for inviting me to 
testify. My name is Jeremy Nowak. I am the president of the 
Reinvestment Fund. We are a community development financial 
institution with a principle location in Philadelphia, although 
offices are in Baltimore and Washington, D.C. We manage about 
$600 million in assets and are active throughout cities and 
towns in the mid-Atlantic.
    I would like to bring an economic development perspective 
to the issue of childhood obesity. Comprehensive approach to 
reducing childhood obesity and diet-related diseases in our 
view has to take into account the issue of access to high 
quality, fresh food. While having a choice between healthy 
foods and unhealthy foods will not in and of itself solve the 
problem, a lack of healthy food choice will certainly keep us 
from a solution.
    We have provided about $1 billion of loans and investments 
into some of America's poorest communities. During the past 5 
years, we have managed the Pennsylvania Fresh Food Financing 
Initiative, which was referenced in the first panel. We have 
done this in collaboration with The Food Trust, a nonprofit 
policy and advocacy group, and the State of Pennsylvania. Both 
have been really important partners.
    We are, as far as we know, the most successful economic 
development effort in the Nation, dedicated to ensuring that 
all communities have access to competitively-priced fresh food. 
In that sense, we are more than an economic development 
initiative. We are also a health and community building 
program. It creates local jobs, revitalizes neighborhoods, and 
demonstrates the widespread demand for quality food among 
working and low income families.
    In my testimony, I want to talk a little bit about why the 
Pennsylvania Fresh Food Financing Initiative works and why we 
think that a national fresh food financing initiative ought to 
be part of any comprehensive attempt to reduce childhood 
obesity.
    The most important point I want to leave you with, if I 
leave you with nothing else, is that this problem is absolutely 
solvable from the perspective of access. This is a solvable 
problem from the perspective of access.
    So now let me talk about the Pennsylvania Fresh Food 
Financing Initiative. We are a collaboration of public, private 
and civic centers. It is created through the initial organizing 
of The Food Trust, who brought together public officials, 
health care practitioners, consumer advocates and retail 
operators. It was very important to have the retail industry 
and the private sector in at ground zero to design this 
program.
    Together, we shined a light on the problem through a data-
driven analysis and then a programmatic strategy. The result 
was a partnership with the State of Pennsylvania, and I will 
talk a little bit about the use of the money later, who put up 
$30 million, and the Reinvestment Fund matched it on a three-
to-one basis with $90 million of private money.
    Since 2004, the year we launched, we have approved the 
financing of 81 projects, from full service 70,000 square foot 
supermarkets to 900 square foot shops; from traditional 
entrepreneurs to co-ops and public markets, like the one I 
noted when the Congressman from Lancaster was here in the first 
session, and we did a public market in the city of Lancaster, 
which was a terrific market.
    Since then, that has resulted in 1.5 million square feet of 
new development, about 4,800 full and part-time jobs and fresh-
food access to more than 400,000 people that did not have it 
before. The financing efforts have created new stores in 
abandoned lots, refreshed stores that have previously been 
closed, and led to significant expansions with enhanced 
inventory selections. They are in the inner city, but they are 
also in rural Pennsylvania, and they are in small town 
Pennsylvania, places like Lancaster, Gettysburg, York, 
throughout the State.
    There are six things that I detailed, and I won't go 
through them at great length. But there are six things that I 
detailed that are key to our success. One, we use some of the 
money for subsidies, small subsidy grants to help entrepreneurs 
incur some of the barrier entry costs that are there and also 
to help move private debt into the projects where credit 
enhancements were needed.
    Number two, we did this through very flexible financing. We 
made sure that access to capital would be there for customers 
in a variety of different--through a variety of different 
financial products based on the need of the customers. We used 
multiple strategies; this was not just about big super markets. 
It was about enhancing the inventory of small corner stores. It 
was about helping the small bodega expand their inventory and 
open up a second store. But it was also about the large retail 
operations.
    We targeted our money using a very sophisticated spatial 
database. We did it with market expertise. We know how to 
underwrite through the underwriting the business and real 
estate underwriting, and we have had a high quality of 
transparency throughout.
    This project has been replicated. It has been cited as an 
innovative model by the U.S. Centers for Disease Control and 
Prevention; the National Conference of State Legislatures; 
Harvard's Kennedy School of Government; and the National 
Governors Association. It can build on the demonstrated success 
of the program.
    There are a variety of States right now, Louisiana, 
Illinois, New Jersey--New York is going to announce it today at 
11:00; Governor Paterson is going to announce the beginning of 
such a program--that are in various stages of development. We 
are working in fact in New Jersey, and we hope to announce new 
stores in Newark, Atlantic City and Paterson some time quite 
soon.
    In partnership with the Food Trust and Policy Link, a 
national group that specializes in the replication of proven 
initiatives, we have been in discussion with Members of 
Congress and with the Obama administration regarding the design 
and capitalization of a national initiative. The idea of a 
national program is not meant to replicate local initiatives 
but to accelerate their development.
    Anything that happens has got to facilitate private money 
and be matched by local government. Nor is it meant to crowd 
out private investment, but once again to facilitate its entry. 
It was easier, frankly, to come up with $90 million of private 
money 5 years ago than it is today, and in fact, the way we 
would use grant money or public money to facilitate private 
money would be a bit different right now than it was 5 years 
ago.
    We have developed--and I know my time is short, So I will 
just say a few other things. We have developed this spatial 
statistical model that uses retail food data, distance-to-store 
analytic with grocers with annual sales of $2 million or more, 
and a real estate cluster model that we think conservatively 
estimates the market viability for additional fresh food 
retailers. Based on this analysis, we think that there are 23 
million Americans living in communities without access to high 
quality fresh food, even though there is commercial viability 
for store location.
    This is the critical issue. If we are going to solve the 
access problem, you can only solve it at the intersection of 
social need and market viability, retail viability. And this is 
possible. If there was a billion dollar program, in our view, 
from the Federal Government that was maxed at a minimum of a 
dollar per dollar, we could improve health access to 15 million 
people, help create or improve 2,100 stores, rehabilitate 50 
million square feet of retail space and create and retain 
29,000 full-time jobs and 119,000 part-time jobs based on the 
metrics we extrapolate from the State of Pennsylvania.
    I will leave you with one other thought. There is clearly a 
bridge here between economic development and health impacts. 
People on this panel and the people on the panel before know 
more about the health issue as it relates to childhood obesity. 
We know there is no simple answer to this. But it is clear to 
us that access is a piece of the solution puzzle. We also know 
it is about education, but we know that we will need an 
educational commitment that is as significant as the kind of 
commitment we had when we first started to target anti-smoking 
ads to young people.
    We know it is about more sustainable agriculture processes, 
but surely the necessity for fresh food access has to be part 
of the toolbox of solutions. Let's not forget the place-based 
factors at work here. They are real. They are the ones that we 
live with all the time in the work that we do. It is not just 
an urban issue. It is also a rural, small town issue, and there 
are opportunities to solve it and sign posts that say there is 
a way to get it done.
    Thank you again for inviting my testimony. I wish you the 
best as you grapple with the critical issue of childhood 
obesity, its link to disease, and the best intervention 
strategies for us going forward. Thank you very much.
    [The prepared statement of Mr. Nowak follows:]******** 
INSERT 3-1 ********
    Mr. Pallone. Thank you, Dr. Nowak.
    Ms. Sophos.

                    STATEMENT OF MARY SOPHOS

    Ms. Sophos. Thank you, Mr. Chairman and members of the 
subcommittee.
    My name is Mary Sophos, and I am senior vice president and 
chief government affairs officer for the Grocery Manufacturers 
Association. I greatly appreciate having the opportunity to be 
here today. It is critically important that we identify and 
support strategies that work to reduce childhood obesity.
    This year, Mr. Chairman, we worked together to pass 
sweeping food safety legislation, and our industry is committed 
to work with you again on this issue.
    Since 2002, the food and beverage industry has taken 
significant steps to create and encourage healthier choices. In 
recent years, we have changed our packaging to promote portion 
control, and we have reformulated more than 10,000 products to 
reduce or remove saturated fat, trans fats, calorie, sugar and 
sodium.
    Changes in advertising practices have resulted in a 
significant shift in the product mix of advertising viewed by 
children and by adults as companies continue to respond to 
consumers' desire for healthy products and a healthy lifestyle.
    We think that the key to helping individuals achieve and 
maintain a healthy weight lies with developing the habits and 
skills to incorporate energy balance into our daily lives, 
something Dr. Huang referred to as well. This means balancing 
calories consumed as part of a healthful diet with calories 
expended through physical activity. We think this should be the 
focus of our collective efforts. We are beginning to see what 
works and the importance of this energy balance message.
    Three years ago, GMA and its member companies helped create 
the Healthy Schools Partnership, a partnership of the American 
Dietetic Association Foundation, PE4life and the American 
Council for Fitness and Nutrition. The HSP integrates a 
nutrition curriculum into the PE4life physical education 
classroom, training registered dieticians to be nutrition 
coaches, to coach and motivate students alongside the PE4life 
teachers. And I would say, the PE4life is the organization that 
documented the statistics that Congressman Murphy was talking 
about on the improvements in academic performance and 
discipline.
    The initial evaluations of the nutrition component of this 
program undertaken by UC Berkeley have been extremely positive. 
Although they started out roughly the same, after coaching, 
students in the intervention schools had scores significantly 
higher than those of students in control schools, particularly 
in understanding how to maintain a healthy body weight and 
recognizing the value of eating more fruits and vegetables. 
After RD nutrition coaching, twice as many students from 
intervention schools, 31 percent, compared to the control 
group, 17 percent, were eating vegetables in school. And as we 
know, consumption of fruit and vegetables is one of the key 
indicators of a healthy weight in children.
    It is programs like Healthy Schools Partnership that are 
making a difference in children's lives. I would note that the 
original schools, which are in Kansas City, Missouri, are in 
the urban core, and 75 percent of the student population is 
eligible for free or reduced price lunch.
    This year and next, we will be expanding the Healthy 
Schools Partnership into additional schools in the Kansas City 
metropolitan area; into Des Moines, Iowa; and a tribal 
community in Iowa; a school in Chicago; and four schools in 
Washington, D.C. This expansion is being made possible by an 
$8.5 million grant from the Healthy Weight Commitment 
Foundation, which was launched in October of this year. It is a 
coalition of 40 retailer, nongovernmental organizations, and 
food and beverage manufacturers who have launched a $20 million 
national multiyear effort designed to reduce obesity, 
particularly childhood obesity, by 2015.
    The HWC will promote helping ways to help people achieve a 
healthy weight through energy balance in the places where 
people spend most of their time, schools, workplace and the 
marketplace. And because it is very important that solutions be 
evidence-based, all the initiatives under the Healthy Weight 
Commitment Foundation include the use of objective outside 
expert evaluators, notably the Robert Wood Johnson Foundation 
will be serving as outside expert evaluator on the marketplace 
and particularly with respect to calories in and calories out. 
And we very much appreciate their engagement. And the National 
Business Group on Health will evaluate the workplace 
initiatives.
    Finally, early next year, the Healthy Weight Commitment 
Foundation will launch a public education campaign aimed at 
children ages 6 to 11, their parents, and caregivers to help 
raise awareness about the importance of balancing a healthy 
diet with physical activity.
    Mr. Chairman, our industry will do more are to meet this 
complex challenge, and we look forward to updating you on the 
activities of the Healthy Weight Commitment Foundation and the 
Healthy School Partnership in the coming months.
    And Congressman Braley, when you were out of the room, I 
noted that this unique partnership in the schools we are 
bringing to Des Moines, Iowa, and a tribal community in Iowa 
this year and over the next several years.
    In particular, we urge Congress to increase investments in 
physical education, nutrition education, and to encourage 
changes in the built environment and to support workplace 
wellness programs that recognize and reward improvements in 
health among employees. We think these are shown to be among 
the most promising strategies and where additional investment, 
so that we can bring these pilot programs to scale, is 
desperately needed and would actually produce significant 
results. Thank you very much.
    [The prepared statement of Ms. Sophos follows:]******** 
INSERT 3-2 ********
    Mr. Pallone. Thank you.
    Dr. Lavizzo-Mourey.

         STATEMENT OF RISA LAVIZZO-MOUREY, M.D., M.B.A.

    Dr. Lavizzo-Mourey. Thank you, Chairman Pallone.
    Mr. Chairman, thank you and other members of the committee 
for this opportunity to testify about innovative solutions and 
strategies to address the epidemic of childhood obesity.
    The Robert Wood Johnson Foundation has committed to invest 
over $500 million in reversing the epidemic of childhood 
obesity by 2015. We focus our approaches on research that 
suggests how to use nutrition and physical activity, which are 
both required in order to reverse this epidemic.
    There are five key areas that we think are important for 
change: First, providing only healthy foods and beverages for 
students at school; improving the availability of affordable 
and healthy foods in all communities; increasing physical 
activity before, during, and after school; improving access to 
safe places where children can play; and regulating marketing 
to children.
    In my written testimony, I gave a number of examples of 
projects across the country that we are funding in this area. 
However, at this time, I want to tell you a story about a young 
man, Kenyon McGriff, whose picture is shown here. Kenyon is an 
African-American teenager who has a family history of diabetes 
and heart disease. And when he was 15 years old, a few years 
ago, his physician told him that, at 270 pounds, he was at risk 
for diabetes and a whole host of other chronic illnesses.
    Kenyon took his physician's warning seriously. He got help. 
He joined a running club. He changed his diet. But even armed 
with the best intentions and all the good information that he 
had, Kenyon still struggled to get healthy, because his 
neighborhood, west Philadelphia, was home to dozens of fast 
food restaurants, take-out joints and convenience stores that 
did not sell healthy foods. As he used to say, it takes income 
to be healthy. And his school didn't offer healthy choices. 
Lunch for him, as he said, was burnt pizza and often soggy 
hoagies.
    Now, Kenyon did his very best to eat healthfully on the 
budget that he had, and he stayed committed to his running 
club, often running through the traffic-clogged streets of west 
Philadelphia. He and his teammates set and met a goal to 
complete the Philadelphia marathon.
    Now, Kenyon is an aspiration and an inspiration for all of 
us. But there are a lot of kids in neighborhoods across the 
country who get discouraged when they don't have the help and 
the means to overcome the environmental barriers that make it 
so hard for them to live well, to eat well, and to be healthy. 
We know that where we live, learn, work, and play has a 
tremendous impact on how healthy we can be. Our environments, 
that means the places where we eat our food, the choices that 
we have in school and in restaurants, the threats that we may 
face because of crime and traffic, and the lack of social 
support, those social factors can create real barriers to 
health. And with those barriers, it is no wonder that so many 
kids are overweight and obese.
    In communities across the country, it is far too much 
easier to make unhealthy choices rather than healthy choices. 
And we must change that. What if the corner grocery store in 
Kenyon's community agreed to stock healthier foods so that kids 
had more healthy options and nutritious snacks as they walked 
home from school? And what if they limited marketing and 
advertising of unhealthy foods? Well, that is happening in 
Baldwin Park, California, under a program that we are funding.
    And what if community coalitions worked to improve safe 
access to improving routes to schools that connected the 
schools also connected neighborhoods and parks and also 
provided job training and employment opportunities for young 
people who could be healthy park ambassadors? Well, that is 
happening in Chicago.
    And what if faith-based communities worked in partnership 
to provide direct transportation routes between neighborhoods 
that have supermarkets and those that don't? Well, that is 
actually happening in Nashville, Tennessee.
    We know that in communities across the country, there are 
ways to make it easier for children and families to make those 
healthy choices. It is critical that a diverse set of partners 
working together effect community change. It is the 
responsibility of families, of schools, of health providers, of 
industry, of government, of really the entire community.
    By solving this epidemic, we are going to have to rely on 
the leadership and the coordination at the Federal level but 
also across departments and agencies at the State and local 
level as well. Transportation, housing, education, agriculture 
policies along with health policies will have an impact on the 
kind of health that our kids will have by giving them access to 
healthy, nutritious foods and safe streets and environments.
    Together, we must ensure that every community is healthy in 
order to reverse this epidemic and ensure that all of our 
children can be healthy and grow up to be healthy adults.
    I thank you again for this opportunity to testify today. 
And I look forward to your questions.
    [The prepared statement of Dr. Lavizzo-Mourey 
follows:]******** INSERT 3-3 ********
    Mr. Pallone. Thank you.
    And let me thank you all.
    We will take questions now from the members. And I will 
start with myself. As I mentioned, the real purpose of this 
hearing was to try to get your innovative ideas and see if we 
could use them somehow in a broader way, either through 
government, private sector or whatever. And of course, I, being 
that we are in Congress, I always stress what the government 
can do, if it can do anything.
    I cannot help but focus on the two individuals who 
mentioned New Jersey here today, because both Mr. Jaworski and 
Dr. Nowak brought up New Jersey several times. And so my 
questions to the two of you are related to this whole issue.
    In other words, like, Mr. Jaworski, you particularly talked 
about--well, you mentioned keeping a phys-ed requirement in New 
Jersey. That is a government function, in that case, the State.
    You mentioned an innovative program in Camden. I was--I 
have been actually--go to Camden quite a lot, even though it is 
like an hour and a half away from my district because as--there 
is a ministers association there called PICO. P-I-C-O. I forget 
what it stands for. I remember particularly when we were doing 
the SCHIP, which is an expanded children's initiative which we 
passed and the President signed earlier this year, before we 
got into the larger health care reform, and they were very 
supportive, and they asked me to come down and show what a 
difference it would make if we had the SCHIP program expanded. 
It is called Family Care in New Jersey. And I was really struck 
by a number of things just in my couple of days visiting 
Camden; a lot of the drugs being sold openly on the streets.
    So tell me a little more. You mentioned Steve's Club, that 
was--it is like a gym that you fund? Is there any way that that 
can be expanded or we could do something like that beyond what 
you do? I take it, it is all privately funded by you from what 
I understand.
    Mr. Jaworski. Yes, Chairman.
    Steve's Club is privately funded. At a golf tournament that 
I run every year to raise money for the Jaws Youth Fund, we 
earmark one of those community organizations that will receive 
the funds. And my family and I visited a number of the 
organizations throughout Camden and south Jersey and kind of 
determine the needs in our community. And we were very, very 
impressed, in fact blown away, by the effort of the young boys 
and girls at Steve's Club. These are inner city kids that are 
really trying on their own to make a difference, and we felt we 
needed to do something to help them.
    So we were able to get money to them. We got a local 
business to chip in, so we could buy this van. So, actually, 
Jose could drive around and bring his kids over to the club. It 
was--excuse me a second--it was pretty impressive to see. When 
you give people a chance, they will make things happen. And it 
was happening.
    And there were other things that happen--I don't mean to 
single out Camden. But in the City of Camden, there is not a 
grocery store really in the city. It is on the outskirts. And 
they did a study, went into some of these local corner grocery 
stores. There were no groceries. There were no fresh fruits. 
There were no fresh vegetables. Those are things we are hearing 
about here. So really the mission here is just to enlighten 
people on what is really going on out there. I just felt that 
part of the organization I have, my Jaws Youth Fund, could do a 
weekend help, and Jose is a real living example, and there are 
probably hundreds of others. But there are needs in our 
community.
    Mr. Pallone. Well, Dr. Nowak, not only following up on what 
he said, you mentioned your Pennsylvania initiative now. You 
are doing this in a number of cities in New Jersey. You 
mentioned quite a few. And you said it was a public-private 
partnership. Again, same essential question is, how do we 
replicate this? Is there a Federal role or something we can do 
to expand this? And tell us a little bit more about it.
    Mr. Nowak. I believe there is. Could I just say one word 
about Camden?
    Mr. Pallone. Sure.
    Mr. Nowak. We actually work with the PICO affiliate very 
closely in Camden, Camden Churches Organized for People, and 
done hundreds and hundreds of housing units that we finance 
with them.
    Ron is right; there is not a full service grocery store 
with fresh fruit and vegetables in the City of Camden. We are a 
city of 90,000 people. We are actually working on a site right 
now, one of the extraordinary things that has happened recently 
in Camden, with the expansion of Cooper Hospital, Rutgers 
University is starting to get some development in the central 
part of the city.
    Many of the supermarkets that we have financed in the inner 
city are right on the edge, interestingly, between middle class 
and low-income neighborhoods. So the entrepreneurs are able to 
build markets that are able to draw from both. And there is a 
tremendous lesson there. And we think there is great 
opportunity right now in the City of Camden.
    We are working with the Economic Development Administration 
in New Jersey. They have put up some debt and we have also for 
the grocery stores. I think the role of the public, the role of 
public money is always and only to pay for costs that the 
private sector can't pay for because of a market failure or 
because of some legacy cost that simply can't be incurred. If 
you look at a place like Camden, there are land costs related, 
for example, to environmental reclamation that simply no one 
can----
    Mr. Pallone. Also, I remember with PICO, I know I am--there 
was also the problem with--what do you call it? Where these--
where the land or the houses had these tax liens that made it 
very difficult for them to be transferred or reused, too. That 
was another issue.
    Mr. Nowak. Right. So the public role is to help get private 
money in or to pay for certain costs that can't be incurred by 
the private sector, but only to do it in situations where you 
believe there is market viability for a high-quality retail 
operator. I think now is a great time, frankly, because many of 
our urban operators, as an example, have found that cities and 
small towns are places where they have now more competitive 
advantage--these are the independent operators--than they do in 
places where, frankly, they can't compete with 130,000-square-
feet super stores.
    So the west Philadelphia site where hopefully Kenyon is now 
buying his groceries at 52nd and Parkside that we recently 
financed. There an operator with 12 grocery stores, a guy named 
Jeff Brown, can compete. He is now grossing in west 
Philadelphia close to a million dollars a week in that store 
and serving low-income people, doing it successfully, making 
money in a low-margin business, 1 to 2 percent margin business. 
But he got some public health to do that through some new 
market tax credits and also through a grant that helped with 
land reclamation for an environmentally toxic site.
    Mr. Pallone. My time is up, but I want to follow-up with 
both of you on some of these initiatives, particularly in my 
State, but obviously, it can apply anywhere. I appreciate it.
    Thank you.
    The gentleman from Georgia, Mr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    I was going to ask my first question to Mr. Jaworski. Since 
my 401-k is down about 40 percent, I was going to ask him for a 
tip on the upcoming Super Bowl. I guess we don't know the teams 
yet, and that question might be a little inappropriate.
    I will hold back on that one.
    Mr. Jaworski, first of all, I commend you for the work you 
are doing with the Jaws Youth Fund that you had so much to do 
with organizing and, of course, the NFL 60 program as well.
    Let me ask you, in regard to school PE programs, my good 
friend from Iowa, Mr. Braley, would discuss that and ask some 
questions of the first panel. And I am from Georgia, and I was 
on a school board, started my political career actually on a 
local school board. And there was--and every time something got 
cut, and there was always this struggling to have enough 
dollars, it would be physical education. And I think Bruce is 
right. I mean, when they had it, it would be dodge ball. It 
wouldn't be something that was aerobic exercise where the kids, 
clearly--you are a professional athlete, and I would just like 
to hear your opinion in regard to the importance or lack of it, 
if you feel that way, of getting physical education back in our 
school systems.
    Mr. Jaworski. Mr. Gingrey, obviously, it is very important. 
As a student at Youngstown State University, I was a health and 
phys-ed major. So I learned through my curriculum the value of 
health and physical education and maintaining a quality 
lifestyle from eating properly to maintaining the body 
properly.
    And obviously, as a professional athlete, it was paramount 
that I maintain my body in the most opportunistic way that I 
could. And I was very fortunate to have personal trainers, 
strength coaches, proper nutrition, nutritionists, all those 
things that go along with being a professional football player 
for 17 years.
    But What I learned at Youngstown State was the importance 
of physical education, to have a sound mind, to have a sound 
body, to eat foods nutritionally. And as I grew a little older 
and a little bit wiser and I saw that some of these programs in 
grade schools and high schools and middle schools were being 
eliminated, it was unconscionable to me, knowing personally the 
value of physical education. It is invaluable.
    What the NFL is doing is not trying to solve the physical 
education problem, just saying hey, 60 minutes. I am not 
saying, take 4 hours a day, but find a way to get off the couch 
and give me that 60 minutes. And we hear about couch potato, 
computers and all that. The NFL with EA Sports now has EA Fit. 
So you can actually watch your computer, like some people do 
with Wii, and play golf and bowl and play tennis and do all 
those things. So I think there is now the opportunity, even 
through the new wave kids where they can not sit on the couch 
but get some sort of physical activity, and we are only talking 
for 60 minutes.
    Dr. Gingrey. Absolutely. Thank you.
    Dr. Hassink, I referenced the American Academy of 
Pediatrics and your upcoming testimony when I was talking to 
the first panel. And you heard my question to them. And I know 
in your testimony, it was great testimony and very, very 
comprehensive, you do seem to put a strong emphasis on the use 
of, by definition, taxpayer dollars to promote a social norm of 
good health. A very comprehensive approach. But as I said 
earlier, these folks have to be paid.
    Do you think--do you think that parents can provide that 
social norm of physical activity and give children the support 
day in and day out to make these healthy choices?
    Dr. Hassink. Well, I often tell my parents in clinic, it is 
a little right now like guerilla warfare for the families. They 
are trying to make choices in an unhealthy environment at 
times. So the first step is to help them with knowledge and 
skills to make the healthy choices and then get them in a 
situation when they go back home to have healthy choices to 
make.
    So I think parents need all the support we can give them in 
terms of understanding what needs to be done and then further 
support, access to make the right choice. I honestly say, I 
have been doing this for 22 years, you don't meet parents who 
don't want what is best for their children. Our parents want 
healthy children. They are struggling to know how to get them.
    They are frustrated with what is available to them. Some of 
them are frustrated with school meals. Some of them are 
frustrated with the fact that it is a competitive sports 
environment in many schools, not a participatory environment. 
So the child who is a little slower to develop their skills 
maybe a little heavier, they get opted out of sports pretty 
quickly in the school environment. Then, if you don't have PE, 
they can't--where do they learn team work? Where do they learn 
skills? Where to they learn sports? And that tails off very 
quickly. So I think I see the parents, they want to try. They 
will learn. They do need help. But when you send them out and 
they are not supported, it becomes very difficult for them. And 
it is sad because they want healthy children.
    Dr. Gingrey. Thank you.
    Mr. Chairman, I see my time has expired. Will we have a 
second round, I hope?
    Mr. Pallone. The only limitation on it would be I think we 
might be having votes soon. But let's see. If not, we can, and 
assuming that the panel can say, and there is only three of us. 
But let's----
    Dr. Gingrey. Mr. Chairman, before I yield back, I want to 
ask unanimous consent to submit my opening statement for the 
record. I didn't get an opportunity to do that. And thank you, 
Mr. Chairman.
    At this point, I yield back then.
    Mr. Pallone. Without objection, so ordered.
    Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman. And I also would 
request unanimous consent to submit my opening statement for 
the record.
    [The prepared statement of Mr. Braley follows:]******** 
COMMITTEE INSERT ********
    Mr. Pallone. So ordered.
    Mr. Braley. Dr. Hassink, I am going to follow up on your 
comment, which several of the other witnesses have talked 
about, and that is parents frustrated with food choices in 
school. And I think that is one of the reasons why I introduced 
the Healthy Choices For Kids Act earlier this year to promote 
the idea of labeling the foods being served in school 
cafeterias with nutritional information, which would authorize 
a pilot program in 100 schools to label the foods being served 
with nutritional and caloric information at the point of 
decision.
    And I would highlight there is a recent study that has 
actually shown that students were more likely to make healthier 
food selections when the nutritional information was available 
next to the food item being served, and that was a 2005 issue 
of the Journal of Child and Nutrition Management, which found 
that students' choices for more healthy entrees increased after 
reading nutritional content labeled next to the food item.
    And my hope is that the Healthy Food Choices For Kids Act 
will be included with the Child Nutrition Program's 
reauthorization. And I have been working with the Education, 
Labor Committee and Chairman Miller to include this legislation 
in that program.
    I also wanted to comment, Dr. Lavizzo-Mourey, more on your 
comment about safe routes and the importance for kids who 
increasingly face difficult environments getting to school. And 
the Transportation Committee, which I have previously served 
on, has jurisdiction over the Safe Routes to Schools Program, 
which is Federal dollars being used to enhance the security of 
routes to schools for kids.
    When I was in Denver last summer for the Democratic 
Convention, I went to an elementary school in Denver that is 
combining a lot of the aspects of what we have been talking 
about here today, where kids who rode their bikes to school 
would be given a bike helmet with a bar code on it, and they 
would ride past this computer terminal which made a clanging 
noise to reenforce auditorily with the kids they had ridden 
their bike to school. And that would automatically then record 
it in the school computer. And the more days they rode or 
walked to school, they would get points. And at the end of the 
school year, they got some kind of a prize, maybe an iPod or 
something depending on the level of participation.
    Now, here was the biggest complaint that they got, because 
parents got more engaged in riding their bikes to schools with 
kids that when it started to snow in Boulder, they were getting 
complaints from parents who were being forced to ride in the 
snow with their kids who were obsessed with scoring points and 
getting physical activity. So I think that is a good problem 
that we have in this country, and we need to have more of those 
problems.
    But one of the things that I have also heard today, and 
that is that recreational time for kids has increasingly gotten 
structured.
    And Mr. Jaworski, I want to ask you this question because 
it is a paradox that has been created by some of the activities 
of the NFL. I was a kid who grew up with punt, pass and kick. I 
also coached youth sports using jerseys donated by the NFL, 
which was a great thing to attract interest in the program.
    But part of the problem we have with youth activities is 
that a lot of kids and a lot of parents seem to have bought 
into the concept that, unless you are in a structured, team 
sports activity, there is no value to participation. So can you 
tell us some of the things that your foundation and the NFL is 
doing to take a broader message to kids about the need to 
engage in unstructured play, aerobic activities that have 
nothing to do with team participation, and get us to the point 
where we have a balanced comprehensive approach to team and 
team building and exercise with youth today?
    Mr. Jaworski. Yes, sir, Mr. Braley.
    And, in fact, I think because we hear Play 60 really 
sponsored by the National Football League, we probably--the 
conception is some organized kind of sport. But it is real 
simple. Just 60 minutes of activity. It could be a walk in the 
park. It could an ride on your bicycle. It doesn't have to be 
an organized team activity. So I think that that should be 
clear. That is not what they are saying, you need to be a team. 
Although there are some leadership skills and social skills 
that you acquire by being involved with a team, that is not the 
driving force behind the program. It is 60 minutes of activity, 
and be creative as you want to find a way to get your exercise 
in.
    And I might just add, with the Jaws Youth Fund, we have had 
5k runs, fitness fests, over 1,000 people in Stone Harbor, New 
Jersey, at a 5k run; doing basketball, cheerleading, Navy SEALs 
on the beach, senior citizen activities, different things like 
that. Just ways to keep active.
    Dr. Lavizzo-Mourey. Congressman, let me just highlight a 
program that brings forward an opportunity that we haven't 
talked about today, and that is recess. Many schools no longer 
have recess. And yet that has been identified as the single 
biggest opportunity for children to have activity during the 
day.
    We fund a program called PlayWorks that brings kids, young 
people into the playground, helps to teach young children, who 
may not have learned those games that we all learned as 
children, that not only teaches them how to mediate their 
differences, but how to have good, unstructured play that we 
have been talking about. That is the kind of program that 
starts locally and yet can be taken to scale through the kind 
of initiatives that you have been talking about.
    Ms. Sophos. Yes, Congressman.
    I wanted to mention that the PE4life program, which is the 
physical education component of the Healthy School Partnership, 
is built on exactly those principles, that every child should 
have the ability to enjoy and engage in physical activity. And 
they structured it so that children who aren't good at 
competitive sports, they compete against themselves. They are 
learning how to improve their own fitness and then taking that 
and learning skills that they can then take outside the school 
and into the family to continue. And we think that that is a 
key aspect of what we are going to have to do to reach the 
broader audience of children.
    Mr. Braley. Yes.
    Dr. Hassink. Congressman, there is----
    Mr. Pallone. I am going to ask you guys to wrap it up 
because we have one more speaker, member, Ms. Schakowsky, and 
then we have to vote, and we will be done. So, quickly.
    Dr. Hassink. There is a whole other category of activities 
that children need. There is dance class, karate. There are a 
lot of community activities they can engage in that aren't team 
sports that get them with their peer group. Children love other 
children, and the way to get children to be active is to get 
them to be active with other children. So I don't want to 
forget about all of the other activities that can be available.
    Mr. Braley. Thank you.
    Mr. Pallone. Thank you.
    So we will have Ms. Schakowsky, and then we will be done. I 
just wanted everyone to know. Because we are going to have 
votes, and we really can't come back, and I know you guys can't 
either.
    Ms. Schakowsky. Mr. Nowak, I understand that you are head 
of a CDFI. And although the last few days, I have really been 
working with Treasury to make sure that those get the kinds of 
funds they need, how are you doing as a CDFI?
    Mr. Nowak. How are we doing in general, given the economic 
situation? We are doing well. We have been affected like 
everybody else, real estate values and the volatility----
    Ms. Schakowsky. I am concerned that some of the new TARP 
funds be used for CDFIs, who are really the institutions that 
are investing in communities, creating jobs and lending money.
    Mr. Nowak. I am with you.
    Ms. Schakowsky. OK. Good. We could use your help if you 
want to call the Secretary of Treasury.
    Chicago was mentioned a couple of times, Mr. Jaworski. Were 
you the one that mentioned Chicago? I am very interested and I 
know you did--talking about what your funding--well, could I 
hear what is going on in Chicago?
    Mr. Jaworski, did you mention----
    Mr. Jaworski. I did not.
    Dr. Lavizzo-Mourey. There are a number of programs--we are 
funding a number of programs in Illinois and Chicago, in 
particular, that are bringing community-based organizations 
together, stakeholders at cross sectors to try to create 
innovative solutions that build on the assets of the community. 
So, for example, there is--one of the things that they are 
looking at is, how do you get safe routes from----
    Ms. Schakowsky. That is all----
    Dr. Lavizzo-Mourey. Exactly.
    Ms. Schakowsky. That is in my area.
    I just want to say one thing about this. I think the 
issue--I think you mentioned bringing these things up to scale. 
There is all these innovative projects, all over the country. 
Best practices that have been developed, but then we need to 
have the resources to make sure that--go ahead.
    Dr. Lavizzo-Mourey. I think there are three key things 
there. One is to make sure there are opportunities for 
communities that are innovators to learn from one another, so 
that there are clearinghouses that will how them to share best 
practices and information, and then to have innovative funding 
opportunities at the State and Federal level that can take 
these to scale. And some of the ones that have already been 
mentioned, like the Fresh Food Financing, started as a local 
innovation that now brings together public-private financing 
and is looking to have Federal financing to take that truly to 
scale. That kind of model, lower----
    Ms. Schakowsky. Is Robert Wood Johnson a clearinghouse for 
that?
    Dr. Lavizzo-Mourey. We have a project to actually provide a 
clearinghouse for our grantees, but that is only one part of 
it. Clearly, there are many other organizations that are 
working, and a clearinghouse that includes not only the work we 
are doing but beyond that would be very useful in taking this 
to scale.
    Ms. Schakowsky. You were going----
    Ms. Sophos. I was just going to mention that the Healthy 
Weight Commitment Foundation, which is a private initiative, as 
part of their commitment of bringing funding for an expansion 
of the Healthy Schools Partnership to a school in Chicago, 
including PE4life, which was referenced earlier as a school 
program in Naperville, Illinois. And then the nutrition coaches 
will be sponsored through the ADAF, the American Dietetic 
Association Foundation.
    Ms. Schakowsky. Is GMA sponsoring some of those ads that 
are saying, don't tax soft drinks and those kinds of things on 
television?
    Ms. Sophos. We have supported the American Beverage 
Association effort in that regard. We haven't provided 
financial support.
    Ms. Schakowsky. I think it is sort of give and take, give 
and take here; that if we are serious about promoting healthy 
foods, we have to be serious about it. I saw that General Mills 
is lowering the amount of sugar in its products. I hope that 
they find that commercially viable. And I hope that school 
districts like Chicago will encourage that by purchasing the 
lower cost--the lower sugar cereals. But I understand 
commercial viability. And, Mr.--my eyes are so bad--my CDFI 
friend.
    Mr. Nowak. Nowak.
    Ms. Schakowsky. Said that we want to make sure that these 
things also make money. But it is disappointing to me that you 
are supporting that effort because I think we need to be 
discouraging these high sugar drinks.
    Ms. Sophos. I think there has been a tremendous amount of 
innovation and improvements in the nutrition profiles of 
products. That has been a focus of our industry. And I think 
that you will see that continue.
    The American Beverage Association has a unique partnership 
with the Alliance For a Healthier Generation to remove soft 
drinks from--full-strength soft drinks from schools. So I think 
the industry is doing a great deal to help ensure that healthy 
products attain a bigger place in consumers' pantries and their 
daily lives.
    I think we may agree on the use--disagree on tax policy and 
whether that works, which we don't think it is an effective 
strategy. But our industry is committed to provide healthy--
healthful products and continuously improve the nutrition 
profile of our products.
    Ms. Schakowsky. Good. Thank you for that.
    Mr. Nowak.
    Mr. Nowak. I would just note that Chicago, as you probably 
know--and I would be happy to provide the data--has well 
documented areas that do not have high quality fresh food 
access.
    Ms. Schakowsky. We have food deserts, absolutely.
    Mr. Nowak. Number two, at the State level in Illinois, 
there has been some interest in replicating the Pennsylvania 
initiative, I believe a $10 million appropriation was put 
forward. I do not think there has been a request for proposals 
issued for that to try to create it. But there has been some 
movement at the State level in Illinois. I could get more 
information.
    Ms. Schakowsky. I would love that.
    Mr. Nowak. We talked to the Treasury of the State several 
times about it and how to structure it, and there are several 
organizations, including the Illinois Facility Fund, that I 
know have some input.
    Mr. Pallone. Which I know well. Great. Let us talk more. 
Thank you so much.
    Mr. Pallone. We have votes, so we are going to have to end. 
And I know some of you have to get going, too.
    We can do written questions, though. You may get some 
written questions from us within the next 10 days. And we 
appreciate your getting back to us. And we are going to take 
these ideas and look at possible legislative initiatives. So 
thank you.
    And without objection, the hearing of the subcommittee is 
adjourned.
    [Whereupon, at 12:51 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                                 <all>

</pre></body></html>
